<html>
<title> - BORDER TECHNOLOGY: KEEPING TERRORISTS OUT OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-148]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-148

     BORDER TECHNOLOGY: KEEPING TERRORISTS OUT OF THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                  and

                      SUBCOMMITTEE ON IMMIGRATION,
                    BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2003

                               __________

                           Serial No. J-108-5

                               __________

         Printed for the use of the Committee on the Judiciary




89-330              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
            Makan Delrahim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
MIKE DeWINE, Ohio                    JOSEPH R. BIDEN, Jr., Delaware
JEFF SESSIONS, Alabama               HERBERT KOHL, Wisconsin
SAXBY CHAMBLISS, Georgia             JOHN EDWARDS, North Carolina
                Stephen Higgins, Majority Chief Counsel
                David Hantman, Democratic Chief Counsel
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                   SAXBY CHAMBLISS, Georgia, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     PATRICK J. LEAHY, Vermont
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                 Camila McLean, Majority Chief Counsel
                  James Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     4
Cornyn, Hon. John, a U.S. Senator from the State of Texas........    12
Craig, Hon. Larry E., a U.S. Senator from the State of Idaho.....    11
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     6
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    49
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     8
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     9
    prepared statement...........................................    79

                               WITNESSES

Flynn, Stephen, Jeane J. Kirkpatrick Senior Fellow in National 
  Security Studies, Council on Foreign Relations, New York, New 
  York...........................................................    33
Hutchinson, Hon. Asa, Under Secretary for Border and 
  Transportation Safety, Department of Homeland Security; 
  accompanied by Robert Mocny, Director, Entry-Exit Program, 
  Bureau of Immigration and Customs Enforcement, Department of 
  Homeland Security, and Woody Hall, Assistant Commissioner, 
  Office of Information and Technology, Bureau of Customs and 
  Border Protection, Washington, D.C.............................    13
Kingsbury, Nancy, Managing Director, Applied Research and 
  Methods, General Accounting Office, accompanied by Richard 
  Stana, Director, Homeland Security and Justice, General 
  Accounting Office, Washington, D.C.............................    31

                       SUBMISSIONS FOR THE RECORD

Flynn, Stephen, Jeane J. Kirkpatrick Senior Fellow in National 
  Security Studies, Council on Foreign Relations, New York, New 
  York, prepared statement.......................................    42
Hutchinson, Hon. Asa, Under Secretary for Border and 
  Transportation Safety, Department of Homeland Security, 
  Washington, D.C., prepared statement...........................    51
Kingsbury, Nancy, Managing Director, Applied Research and 
  Methods, General Accounting Office, Washington, D.C., prepared 
  statement......................................................    62

 
     BORDER TECHNOLOGY: KEEPING TERRORISTS OUT OF THE UNITED STATES

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                                       U.S. Senate,
              Subcommittee on Terrorism, Technology
                         and Homeland Security, and
                           Subcommittee on Border Security,
                               Immigration and Citizenship,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 10:04 a.m., 
in room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee on Terrorism, Technology, and 
Homeland Security, presiding.
    Present: Senators Kyl, Chambliss, Craig, Cornyn, Feinstein, 
Kennedy, and Leahy.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. This hearing will come to order. It is a 
joint hearing of the Judiciary Subcommittees on Terrorism, 
Technology, and Homeland Security, and Border Security, 
Immigration, and Citizenship. Like the new Homeland Security 
Department, we have some new names and have moved some things 
around here on the Judiciary Committee. I think it is 
propitious that as we begin work with the new Homeland Security 
Department, these two Subcommittees begin work together on 
issues of importance to us all.
    We are going to welcome for his first hearing Asa 
Hutchinson, who is the Department of Homeland Security's Under 
Secretary for Border and Transportation Security. I would note 
that while he was sworn in on January 24, I believe, he and his 
staff joined together March 1. So with about 10 days under his 
belt with this new department, we are going to grill him about 
why things haven't gotten done yet.
    I am being facetious, of course. The primary point of this 
hearing is to share an understanding with Secretary Hutchinson 
about what needs to be done and to try to get at least his 
first impressions as to what the department will need from the 
Congress in order to fulfill the legislative mandates that we 
have imposed with some of the recent legislation that we have 
passed.
    In addition, our second panel will include the General 
Accounting Office's Nancy Kingsbury, and Stephen Flynn, who has 
testified before the Terrorism Subcommittee before. 
Accompanying Nancy Kingsbury is Rich Stana, and I will let 
Secretary Hutchinson properly introduce the two people that 
have joined him, but it is Robert Mocny and Woody Hall, both of 
whom have expertise in areas that we will be inquiring into.
    This hearing is also propitious because Secretary 
Hutchinson is going to be joining Senator McCain and me this 
weekend on the Arizona border with Mexico, studying not only 
the issues that need addressing at our points of entry, but 
also how to apply technology to the large stretches of land 
between the points of entry. I think we will be getting a good 
firsthand look at the vastness of the land, the fact that 
people can't possibly patrol the entire area, and therefore we 
are going to have to continue to enhance the application of 
technology not just at the ports of entry, but also in those 
areas in between.
    The hearing is going to obviously focus on technology, and 
while my particular Subcommittee deals also with terrorism, it 
is not limited to the object of keeping terrorists out of the 
country, though given the nature of that threat there will be a 
lot of focus on that particular issue.
    There are really three primary parts of the hearing, I 
think. The first is to identify how far along the 
administration and the Congress have come to implement the 
technology systems that we have mandated specifically in the 
Border Security and Visa Entry Reform Act of 2002; second, to 
examine the current Customs infrastructure and technology 
policies, and identify future infrastructure and technology 
needs at our land ports of entry; and, third, to examine the 
technology and border needs in between the ports of entry, as I 
spoke of before.
    Broadly speaking, there are three ways that terrorists 
exploit our Nation's visa processing and immigration inspection 
system. First, they come here legally with at least facially 
valid visas that they have obtained by the State Department, 
and most of the hijackers of September 11 entered the country 
in that fashion. The application of better technology can 
perhaps prevent the entry by terrorists into the country by 
that mechanism in the future.
    Second, it is clear that many illegal immigrants and 
smugglers and potential terrorists use fraudulent documents to 
get into the United States undetected, and again an integrated 
interoperable intelligence system will be better able to 
identify individuals who should not be coming into the country 
in that fashion.
    Third, of course, there is the vast number of people who 
are smuggled across the border or who smuggle themselves across 
the border through alien smuggling networks and bring 
contraband, including drugs and potentially other more 
dangerous things, into the country.
    The Enhanced Border Security and Visa Reform Act that I 
mentioned before creates a whole series of technology-related 
requirements. The automated Entry-Exit System is one of them, 
which requires the electronic exchange of entry and exit 
information on all travel document-holders. Now, we want to 
have this in place, if we can, by the end of 2005, but we will 
hear about whether there may need to be some changes made to 
that.
    The biometric entry documents. The Act requires that all 
travel documents, including passports issued after October 26, 
2004, include a biometric feature.
    Three: the readers at ports of entry for these biometric 
travel documents. It is not clear when we will be able to get 
this accomplished, but the Act requires that the Attorney 
General, in consultation with the Secretary of State, use 
biometric data readers and scanners at all points of entry 
after October 26, 2004.
    Fourth is the Chimera Interoperable Data System. The Act 
requires INS to fully integrate all of its data bases, and 
requires the President to develop and implement an 
interoperable electronic data system that contains Federal law 
enforcement and intelligence information relevant to making 
decisions on visa admissibility and removal of aliens. The 
President is required to establish a commission on this and 
requires it to report to the Congress annually on its findings 
and recommendations.
    Of special interest to me, from the State of Arizona, fifth 
is the Mexican Laser Visa and Reader Program. One of the 
provisions of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 required that the Mexican border-
crossing card contain a biometric tamper-proof identifier.
    This is the card issued to people who frequently travel 
back and forth, who come into the United States for up to 72 
hours or up to 50 miles. There is just a tremendous amount of 
that cross-border traffic with my State, and I am sure with the 
other border States as well.
    We extended the deadline for obtaining these cards, and 
literally millions of Mexicans have gone to the trouble and 
expense of obtaining the cards. But we have found that, 
notwithstanding the appropriation of over $10 million for the 
purchase and deployment of readers, we still have readers at 
only six ports of entry. And we will want to find out a little 
bit more about what is necessary to actually complete this 
process.
    I would conclude by noting that, along with these 
technological requirements in statute, it is also clear that we 
are going to need additional infrastructure. Legislation has 
been introduced to this effect, but Senator Feinstein has 
certainly focused on the Container Initiative at our ports, for 
example. Our truck-size x-ray systems, the personnel radiation 
detectors--all of these things are useful. We will want to hear 
more about them, but obviously also more needs to be done.
    The 2000 report of the Customs Service indicated the need 
for $925 million in facility and equipment improvements at that 
time, and that was prior to September 11. So clearly we have 
additional needs here and this hearing will afford us an 
opportunity, as I said in the beginning, to identify what all 
of us think some of those requirements are and focus on ways 
that we can work with the Department of Homeland Security and 
the person primarily responsible, Secretary Hutchinson, in that 
regard.
    Let me turn next to the new Chairman of the Immigration 
Subcommittee that I identified before, Senator Chambliss. 
Following that, I will turn to Senator Feinstein, who is the 
ranking member on the Technology and Terrorism Subcommittee, 
and then Senator Kennedy, the ranking member on the Immigration 
Subcommittee. And because he is the ranking member on the full 
Committee, we obviously want to give Senator Leahy an 
opportunity to make any comments that he would want to make as 
well.
    I hope that this process isn't too cumbersome. When we have 
the witnesses testify--Secretary Hutchinson, since this is your 
first time, I am not going to use the usual red light system 
that we have, but we will ask Members to constrain themselves 
to 7-minute rounds for questioning and hope that we can get 
through two panels in that fashion.
    Senator Chambliss, welcome.

  STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Chambliss. Thank you, Senator, and I apologize for 
running late. And I literally am running late. I got held up, I 
ran all the way over here and I am out of breath. So if I have 
to stop in the middle of this, I apologize.
    Thank you for holding this hearing and asking my 
Subcommittee to participate, and I appreciate very much Senator 
Feinstein, Senator Leahy, Senator Leahy, as well as Senator 
Craig being here.
    This hearing addresses some very important issues facing 
our Nation. I am glad that we have an opportunity to have a 
discussion with some of the key players at the Department of 
Homeland Security who will now be in charge of securing our 
borders.
    I am particularly pleased that Secretary Hutchinson is 
here, an old colleague of mine, a gentleman that I know very 
well and have utmost respect for. I traveled around the world 
with him and know him to be not just a great guy, but a great 
leader. We are sure pleased to have you where you are.
    I am pleased that we are able to have a discussion in the 
form of a joint Subcommittee hearing because I think it is 
critical that both the Terrorism, Technology, and Homeland 
Security Subcommittee and the Border Security, Immigration, and 
Citizenship Subcommittee be involved in solving these issues 
because we do need the cooperation of both Subcommittees to 
find a solution to the problem that we are now facing at our 
borders.
    I do not think that anyone here would argue that the events 
of September 11 brought to light a glaring hole in the security 
of our Nation, and that is our immigration system. It is 
overwhelmed and undermanned.
    I would say to Secretary Hutchinson that you have a 
tremendous responsibility on you, and I am glad it is you there 
and not me.
    It seems that things slipped through the cracks, and as a 
result three terrorists who hijacked the planes that flew into 
the World Trade Center and the Pentagon were in this country 
with expired visas. The problems with our immigration system 
cannot be fixed overnight and I do not think anyone 
realistically expected them to be. But we can take steps, and 
we have taken steps to address the myriad of issues that we are 
currently facing with our immigration system.
    The USA PATRIOT Act, which we passed in the 107th Congress, 
resolved some of the ambiguities in the Immigration and 
Nationality Act regarding the admission and deportation of 
terrorists. It also provided the Attorney General with the 
power to detain suspected terrorists before they had an 
opportunity to do more harm.
    We built upon that legislation with the passage of the 
Enhanced Border Security and Visa Reform Act. This legislation 
closed several loopholes in immigration law by providing 
additional staff and training for our borders and by 
facilitating comprehensive data-sharing between law enforcement 
officials, intelligence agencies, the State Department and the 
INS.
    It also mandated the use of biometric technology to enhance 
our ability to confirm the identities of those seeking 
admission to the U.S., restricted the admittance of nationals 
from countries that sponsor terrorism by requiring the State 
Department to first conclude that the individual does not pose 
a national security threat, and improved upon our foreign 
student monitoring program.
    I am very pleased with the legislation that the Congress 
passed and the President signed into law. And I realize that we 
attach short deadlines with many of the mandates that we 
incorporated into that legislation, but we were eager for 
action.
    Now is the time to check the progress of implementing this 
legislation and see what more needs to be done to determine the 
areas in which performance needs to be more effective and to 
assess how realistic the goals of our last legislative efforts 
were.
    I know that I remain committed to working with my 
colleagues, our President, his administration, the Department 
of Justice, the Department of Homeland Security, the State 
Department, the Treasury Departments, and all other necessary 
parties to ensure that we are taking the needed steps to secure 
our borders.
    I am concerned with a number of the aspects associated with 
our immigration system. For instance, I want to know what steps 
we are taking to track foreign national visitors in the U.S. 
with expired visas. I have concerns about the number of illegal 
immigrants coming into our country between ports of entry. I am 
worried about the smuggling of drugs or weapons across our 
borders and what we are doing to prevent it.
    Today, I will focus on what the departments are currently 
doing and what mechanisms can be put in place to facilitate the 
entry of people authorized to come into this country, and to 
ensure at the same time that certain inadmissible people are 
prevented from entering.
    I am interested in hearing more about the possibility of 
adding biometrics to visas and passports, and of creating a 
biometric watch list to identify travelers who are inadmissible 
to the United States before issuing them travel documents or 
before allowing them entry into the U.S.
    However, I do have questions about the cost of implementing 
these tools, about the reliability of current biometric 
technology, and about the effect that pursuing one or several 
of these options will have on our trade and commerce and on our 
relations with other nations.
    I am eager to begin our discussion with today's witnesses. 
I thank them again for being here and participating in this 
important exchange, and I look forward to a dialog.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Chambliss.
    Next is the ranking member of the Terrorism and Technology 
Subcommittee, formerly the Chairman of the Subcommittee. And I 
have said it before and I will say it again that there is 
probably no one on the Democratic side that I have introduced 
or cosponsored more legislation with, and probably more with 
Senator Feinstein than most of my Republican colleagues, 
because we have seen eye to eye on many of the issues that we 
have worked on and it has always been a real privilege for me 
to work with her. And for her to be the ranking member of this 
Committee now at this important time is also a real benefit for 
the people of this country.
    Senator Feinstein?

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
appreciate those comments. As you know, I share those 
sentiments, so thank you very much.
    For a year-and-a-half now, Congress, the administration and 
the American public have searched for answers as to how a large 
group of coordinated terrorists could operate for more than a 
year in the United States without being detected, seize control 
of four different commercial jetliners, and then use those 
jetliners as weapons of mass destruction without being stopped.
    The benefit of hindsight provides a clearer picture of how 
existing technologies might have been used to at least alert 
the appropriate officials that some, if not all, of the 
hijackers' visas should have been denied. Furthermore, these 
technologies might have tracked the previous history of the 
hijackers' immigration violations, which should have led 
immigration inspectors to deny entry to at least some of them.
    We all know too well, under our current system, a 
determined terrorist with unlimited resources who is willing to 
risk his life as well as the lives of others can probably find 
a way to enter this country. Since September 11, we in Congress 
and the executive branch have undertaken efforts to make it 
harder for that to happen. But if those efforts are to be 
effective, Federal agencies will have to have the necessary 
tools to enforce the laws governing the Nation's borders.
    We have seen how the September 11 terrorists exploited the 
Federal Government's lax oversight of our immigration laws. 
They also exploited what was then our immigration system's 
inability to transform itself from its current paper-driven and 
unmanageable bureaucracy into a modern technological system.
    For example, had the foreign student tracking system, 
commonly known as SEVIS, been in operation, the INS might have 
known that Hani Hanjour, one of the 19 hijackers, had violated 
the terms of his visa. In late 2000, Hani Hanjour entered the 
United States on a student visa to learn English at a school in 
Oakland, California, but he never showed up at that school. He 
managed to evade detection until that fateful morning of 
September 11, when we learned that he was at the controls of 
American Airlines Flight 77 when it struck the Pentagon.
    Immigration authorities might have prevented Mohammed Atta 
from entering the United States. He had violated the 
immigration laws by previously overstaying his visa long before 
he flew a plane into the World Trade Center. Atta arrived in 
Miami on January 10, 2001, claiming that he wanted to take 
flying lessons. But he carried only a tourist visa, not the 
required vocational training visa. Either of the two 
infractions was sufficient to deny him entry, but like his 
comrades in terror, he simply slipped through the cracks.
    Because of the recordkeeping problem, Miami inspectors were 
unaware of Atta's overstay violation. So when he convinced the 
inspectors of his good intentions, he said he had applied for 
but had not yet been approved for a student visa. Yet, despite 
the lack of a valid visa, he was allowed to enter the United 
States.
    These blunders and missteps and the consequences that 
flowed from them represent the end result of having an 
unfocused, unconnected and unsophisticated technological 
infrastructure, as well as the systemic lack of resolve to 
provide the right training, the right tools, the right 
management and the right incentives for our front-line officers 
to do their job.
    The challenge for our border agencies, therefore, is to 
establish a state-of-the-art border infrastructure that 
supports the dual goal of national security and legitimate 
border crossing.
    For example, how do we build on successful pre-screening 
programs like the SENTRI initiative, which permits Mexican 
nationals to be pre-screened and pre-inspected in exchange for 
more rapid travel access across the border in a specially 
designated lane?
    Is it feasible or desirable to extend programs like this to 
foreign nationals of other countries? I think it deserves a 
good look. What quality control checks would have to be in 
place to expand such a program without increasing the risks?
    I realize that technology is not the sole answer to meeting 
the challenges of securing our country from entry by those who 
wish to do us harm, but it is an essential element. Without it, 
our border inspectors are essentially left with their hands 
tied, unable to compete with those who would use even more 
sophisticated means of gaining illegal entry to the country.
    Another example: How do we build an efficient process so 
that front-line inspectors are not tasked with logging on to 
several lookout data bases to search for and interpret a 
complex intelligence report where more scrutiny is required? 
How can that important step be handled at the front end so that 
the inspector has only to see a red flag that tells him to send 
the traveler to secondary inspection? How do we better invest 
in the skills of our border personnel so that we can be sure 
that laws are clearly understood and strictly followed? How do 
we invest in training and retraining on new techniques and new 
technologies to enhance their risk management skills?
    At today's hearing, we hope to hear a distinguished panel 
of witnesses assess the steps that have been taken since 
September 11 to harness technology to help our dedicated front-
line officers keep terrorists and instruments of terrorism out 
of the United States.
    Again, I thank the Chairman for holding this hearing and I 
look forward to today's testimony.
    Chairman Kyl. Thank you, Senator Feinstein.
    When I was a new member of the Immigration Subcommittee, 
then-Chairman Alan Simpson took me to see Senator Kennedy. He 
said this is something you need to get to know because even 
though he may be cantankerous at times, he has been here 
longer------
    Senator Kennedy. I thought you had forgotten that word that 
Alan used.
    Chairman Kyl. Well, that is a Simpson word, as you know.
    He said he has been here a long time and he knows more than 
anybody else about this immigration stuff and you really need 
to work with him. And I have found over the years that the 
latter is true, never cantankerous, but very knowledgeable and 
always pleasant to work with. I might way that both Senator 
Feinstein and Senator Kennedy have extraordinary staffs who are 
also very easy to work with and that makes our job a lot 
easier, too.
    Senator Kennedy?

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Senator Kyl. We have 
worked together, particularly on that important border security 
legislation last year, in a strong bipartisan effort strongly 
supported by Senator Leahy. I want to welcome Secretary 
Hutchinson here.
    As we have heard, much can be done with technology. A great 
deal can be done with technology and we have to make sure that 
we have the best technology. That is true about our service men 
and women, to have the best technology and be well-led, and it 
is true in terms of homeland security. We know that a great 
deal more has to be done in this area not only in getting the 
best technology, but also having it interoperable. That is 
absolutely essential.
    We have seen, as we did at the time of 9/11, that we had 
the CIA actually fail to provide the INS with the information 
on the watch list which would have given them a heads-up. The 
fact that the CIA did not provide it permitted the INS to let 
two of the hijackers to gain entry into the United States. So 
you can have the best of technology, but if you don't have the 
policies in terms of sharing information and using it 
effectively, it is not going to be effective.
    Second, if you don't have the best trained people who are 
going to stay there and be highly motivated, highly committed, 
and with good morale--and this is constantly a challenge 
particularly in the INS. We have got a lot of very dedicated, 
committed people. It is an enormous challenge that they are 
facing, with 500 million people coming in and out of this 
country over a period of a year. How are we going to follow 
them, keep track of them, and do it in a way which is sensitive 
to their rights of privacy, gaining the right information but 
not unnecessary information, making sure that the information 
that is gathered is not going to be released in such a way as 
to compromise people's privacy or identity kinds of crises in 
terms of duplication and replication of this? So this is an 
enormous challenge.
    In many instances, the newest technology isn't always the 
answer. We want to try and do this, but we are mindful that 
sometimes technology slows the process down with all of its 
implications. So it is a tough job for you to be able to 
finally select and make that judgment, and we want to try and 
work with you.
    Finally, there were reports that were required from the 
agency in our legislation which we all sponsored and was 
supported and signed by the President about the relationship 
between the CIA and the INS and sharing information. That was 
due in October of last year. That was before you even sort of 
thought about these matters. We should have that when you have 
an opportunity to get that to us at the earliest possible time.
    The NSEERS program also requires that you provide 
information to us by early March and we haven't gotten that 
information from you. I don't want to be overly bureaucratic, 
but those are very important policy issues about shared 
information, which is the key to the success of this program.
    Also, the NSEERS program--I know you have got some 
reference in your testimony about this, but we are trying to 
work with local communities, helping to get their cooperation 
in helping to identify potential terrorists within various 
communities, because we know there are cells of Al-Qaeda in the 
United States, and on the other hand with the process of 
fingerprinting and other kinds of activities and the extent to 
which that is counterproductive. These are judgmental values 
and I think we want to monitor these closely and find out your 
reasons for doing it, what is working and what isn't working.
    We thank you very much and congratulate you on your job.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Kennedy.
    Now, we have the distinguished ranking member of the full 
Committee with us as well and I would like to Senator Leahy to 
make any comments that he would like to make.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman, and I thank you for 
your courtesy which is consistent with what you always do, and 
I appreciate that very much.
    It is nice to see our friend, Asa Hutchinson, here. I 
recall on your last appointment I think we set a world speed 
record getting you through this Committee. In fact, it 
surprised somebody at the White House who, when I was talking 
to them, said, well, are you going to be able to get him up 
there soon? I said we did it this morning, and they said but we 
thought it was going to be 2 weeks from now.
    Senator Kyl, I think you and Senator Chambliss and Senators 
Feinstein and Kennedy are doing great service in having this 
hearing. I am glad you are doing it as a joint hearing because 
you have got to improve the technology to keep terrorists from 
coming across our borders. No matter how much personnel we 
have, technology is going to play a vital, vital role. But then 
we also have to make sure the technology is such that it keeps 
an orderly flow across our borders.
    I think of it, of course, from a somewhat parochial view, 
living less than an hour's drive from my home to the Canadian 
border. I am also aware of the fact that Canada is our largest 
trading partner and we need an orderly flow across that border. 
Besides, it also helps when my wife wants to go and visit her 
relatives.
    But in seriousness, it is difficult to strike a balance, 
and yet we have to. It is going to be very, very difficult. I 
think this is going to be one of the things that is going to 
bedevil you during your tenure, and probably appropriately so 
because what you do may well set the standards for years to 
come.
    In the USA PATRIOT Act, Congress and the President 
supported my proposal not only to triple the number of INS 
inspectors and Border Patrol agents and Customs officers at our 
borders, but also to provide $100 million to improve the 
technology we use to monitor the northern border. Actually, it 
requires more monitoring and equipment.
    Last year, Congress passed the Enhanced Border Security and 
Visa Reform Act that added additional steps to improve our 
security. Now, Mr. Chairman, I think what we are doing is using 
our oversight to make sure that that is implemented.
    Just this past week--and I brought this up when Secretary 
Ridge and Attorney General Ashcroft and Director Mueller were 
here--the day before they testified, a helicopter had come 
through and, by accident, some snowmobilers saw them dumping a 
huge amount of drugs in Vermont. Yet, it could have been a 
terrorist, it could have been any type of thing, and it was 
totally undetected either on the Canadian side or the U.S. 
side.
    When you discuss border security, you have to consider both 
the administrative challenges the new Department of Homeland 
Security faces and the budgetary constraints the administration 
has imposed upon it. We have to have the effective integration 
of dedicated officers who worked for 22 different Federal 
agencies at this time last month--22 different ones. They have 
a lot of questions about what they are going to be doing now.
    It is a national concern and a local concern. It is a 
national issue because performance suffers if they don't know 
what their future is going to be. It is a local issue. I know 
many dedicated people in Vermont who are now Department of 
Homeland Security employees. There are more than 1,600 INS 
employees in Vermont who are now working for DHS. They protect 
our borders, they assist in the enforcement of our immigration 
laws in the interior, and they foster legal immigration and 
commerce by processing applications for immigration benefits.
    They are well-trained, highly educated, and extremely 
professional. We want to make sure they are still there working 
for all of us and helping you and everybody else. So I would 
hope the DHS would provide as much guidance as you can to these 
new employees.
    I am supposed to be at an Appropriations Committee meeting 
with CIA Director Tenet right now, but I want to raise an issue 
that we will discuss in Appropriations. House Appropriations 
Committee Chairman Young, with whom we have all served, called 
it a pointless and harmful debate with the President's own 
party on the question of underfunding of homeland security.
    When the bill passed, the last bill, it was gone over line 
by line by the administration. Now, they say they want more 
funding for homeland security. If they had even asked for it 
during that time, they would have gotten it. They would have 
had support from everybody in the committee. I think we have to 
make sure that we back up the money to what we promise. We 
can't just say the check is in the mail.
    Many, many months after the September 11 attacks, the White 
House declined to respond to repeated bipartisan requests from 
Congress to begin funding the northern border security section 
of the USA PATRIOT Act, ones that I negotiated with the White 
House and which they said they strongly supported, until it 
came to asking for the money. The new budget the President is 
proposing does not come close to meeting our security needs. It 
provides less than a 3-percent increase.
    These are questions where, Mr. Secretary, you are going to 
get strong bipartisan support both in the authorizing 
committees and in the appropriating committees for the money, 
and I think now is the time to ask for it.
    So, Messrs. Chairmen and Senators Feinstein and Kennedy, I 
think you do us all a great service, the four of you, in 
holding these hearings. Thank you.
    Chairman Kyl. Thank you, Senator Leahy.
    I am afraid our two other members would feel left out if I 
didn't give them an opportunity to make a brief comment.
    Senator Craig?

STATEMENT OF HON. LARRY CRAIG, A U.S. SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Craig. Well, I will be brief. I am one of the 
freshmen on this Committee, so my colleagues to my left in most 
instances have a great deal more experience and knowledge in 
this area than I.
    I come to the Committee with a micro view instead of a 
macro view as it relates to immigration and what happens when 
you tighten up and gain border security, and I strongly support 
it. As a border State where not much entry occurs but could 
occur, the security of those borders is critical.
    At the same time, when you secure a border and you limit 
access and you don't have public policy that allows the kind of 
access necessary to address an economy, you create an even 
greater crisis. I believe the impending crisis in agriculture 
today, because we are doing the right things at the border, 
could well damage the food and fiber processes of our country.
    We process about 40,000 H2-A workers through each year, and 
yet there are a million illegals in this country in that 
economy necessary to make that economy function. That is a 
reality. But as we tighten the border and we deny that kind of 
illegal access, as we should, we create a crisis.
    We have got another policy issue to address here that is 
very important. If you are on the border in Texas, it takes on 
a different dynamic. If you are on the border in Arizona--and I 
have visited closely with my colleague, Jon Kyl--it takes on 
another dynamic. If you are in Idaho and your crops are rotting 
in the field, it takes on another dynamic.
    The other side of this great concern of ours is that we 
also dehumanize the process, and I mean it in this simple way. 
It is now costing a great deal more at the hands of a coyote to 
move across the border, and the risk as you tighten the border 
down of these innocent people simple trying to find a job could 
well cost them their lives.
    We have got to address this issue because as we tighten our 
borders, we put a lot of people at risk both domestically and 
in the economies of food and fiber in this country and the 
service industry. And those who come to seek out that economy, 
we put them at risk. It is a phenomenal catch-22, but we are 
doing it and we are doing it for all the right reasons, in some 
instances with the wrong impacts.
    I am very anxious to hear from all of you this morning.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Craig.
    Now, the Senator with the longest border with another 
country, Senator Cornyn from Texas.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Senator Kyl. I want to say how 
much I appreciate the witnesses coming to address this very 
important issue to the United States, and particularly to my 
State which does have a 1,200-mile border with Mexico. These 
immigration issues that I know subcommittee Chairman Chambliss 
is going to be addressing and the issues that Senator Craig 
just talked about are of vital concern to me as well.
    I will cut my remarks short so that the witnesses can talk, 
but let me just say that I am mystified when I hear members of 
the U.S. Congress talk about budgetary constraints imposed by 
the executive branch, since the way I read the Constitution and 
the way I understand the process to work it is the legislature, 
it is the Congress that appropriates money, not the executive 
branch.
    In fact, I know the President has expressed his concern 
that some of the money that he asked to be appropriated for 
first responders, in particular, was not appropriated during 
the omnibus appropriation bill that was passed after I got 
here, after January 7, for the year 2003, since we did not pass 
a budget when ordinarily we would have.
    So we all have an important responsibility, each branch of 
the Government, but I think Congress ought to own up to its 
responsibility and not try to foist that or point fingers at 
the administration when, in fact, we are the ones that 
appropriate the money and not the executive branch.
    With that, I will yield my time.
    Chairman Kyl. Thank you, Senator Cornyn.
    Now, the moment we have been waiting for, the second part 
of the two-way dialog here, to hear from our new Under 
Secretary, Asa Hutchinson.
    Welcome again, and we really appreciate your willingness to 
come here after all of 10 days or so with your department. 
Thank you.

 STATEMENT OF HON. ASA HUTCHINSON, UNDER SECRETARY FOR BORDER 
 AND TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY, 
WASHINGTON, D.C.; ACCOMPANIED BY ROBERT MOCNY, DIRECTOR, ENTRY-
 EXIT PROGRAM, BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT, 
  DEPARTMENT OF HOMELAND SECURITY, AND WOODY HALL, ASSISTANT 
 COMMISSIONER, OFFICE OF INFORMATION AND TECHNOLOGY, BUREAU OF 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Senator Kyl, and thank you for 
the welcome. Ranking member Feinstein, thank you, and members 
of the Committee. I want to first tell you that I am very 
encouraged by each of your comments this morning. The expertise 
that resides in this Committee is very helpful to the 
Department of Homeland Security and I think that we can build a 
good team together to take on these tasks. Your background, 
experience and knowledge is certainly encouraging to me, as 
well as the right questions that are being asked.
    As the Chairman indicated, this is my first appearance 
before any congressional committee as the first Under Secretary 
for Border and Transportation Security, and I am honored to be 
able to be here with you.
    I am pleased to be joined by two experts in some of the 
subject matter areas of your interest. Robert Mocny, to my 
left, is the Director of the Entry-Exit Program at the Bureau 
of Immigration and Customs Enforcement. And then to my right is 
Woody Hall, who is the Interim Director of the Office of 
Information and Technology in the Bureau of Customs and Border 
Protection. I am very pleased that they have joined me today.
    Before March 1, the INS and Customs Service were working to 
develop and deploy technologies to enhance the screening of 
people and goods at our Nation's points of entry and between. 
These efforts continue today as they become a part of the 
Department of Homeland Security under the two bureaus that have 
been created--Customs and Border Protection, and Immigration 
and Customs Enforcement.
    Many lessons were learned on September 11, 2001. Some of 
those have been pointed out by the members of this Committee. 
Congress has responded by providing aggressive leadership, and 
the men and women of the agencies that now comprise the 
Department of Homeland Security have responded with long hours, 
dedicated service, and a commitment to get critical information 
about cargo and people to the decisionmakers at our points of 
entry.
    For example, more information is available to our 
inspectors at the points of entry on the thousands of people 
who seek visas to enter our country everyday. But as we all 
know, much remains to be done, and the leadership at the 
Department of Homeland Security understands the enormous 
challenges ahead.
    One of the challenges is the Entry-Exit System, including 
the biometrics that have been required by the USA PATRIOT Act, 
and the Enhanced Border Security Act which the members of this 
Committee provided the leadership on. The goal is to collect 
records of arrival and departure from every alien entering and 
leaving the United States. In addition, it will capture and 
process biometric data and improve information-sharing among 
the agencies. We share Congress' desire to field this system as 
soon as possible based on a well-defined project plan, and look 
forward to working with you to do so in the coming months.
    As part of that overall objective, the NSEERS, or the 
National Security Entry-Exit Registration System, was launched 
by the Department of Justice. That responsibility was 
transferred to the Department of Homeland Security. The NSEERS 
allows us to continue welcoming visitors to our country, but it 
also allows us to intercept terrorists and criminals at ports 
of entry and identify aliens who deviate from their stated 
purpose or overstay their visas. Certainly, that is an 
objective that we have to have.
    Nearly 90,000 enrollees have been fingerprinted, 
photographed and interviewed since its implementation. I 
sometimes point out that that is the same requirement of 
someone who wants to engage in public service, and anybody who 
has appeared in a confirmation hearing has gone through that 
same process. We have now required that for certain visitors 
who come into our country for national security purposes.
    It also requires the non-immigrant aliens who came to the 
United States before it began to report to an interviewing 
office to be registered. All of these aliens must fulfill 
continuing registration requirements and complete a departure 
check when they leave the U.S.
    NSEERS has provided a benefit. Eight suspected terrorists 
have been apprehended, 40 investigations of suspected terrorist 
activity have been opened, and 555 aliens with warrants or 
other criminal violations have been apprehended or denied 
admission. But others go about their legitimate business in our 
country with minimal inconvenience.
    In another area, since 1988 over 6 million biometric 
border-crossing cards have been issued. Funding was provided in 
the fiscal year 2002 budget to deploy card-readers, and a 
recent pilot program identified more than 250 impostors. It 
also has helped us to move commerce and people through our 
ports of entry. We hope to employ additional readers at 
targeted points of entry by the end of this fiscal year.
    Two other tools we are using to ensure the integrity of the 
immigration and visa issuance process include the SENTRI and 
NEXUS programs. These allow pre-screened low-risk travelers to 
proceed quickly through dedicated lanes at our land borders. 
SENTRI is deployed at three southwest border-crossings and 
NEXUS is deployed at six northern border-crossings, and we have 
a strong partnership with both the Government of Mexico and the 
Government of Canada to implement these initiatives.
    We are also working to ensure the integrity of our borders 
between the ports of entry. We have increased the number of 
Border Patrol agents at our northern and southern borders, and 
are using many technologies, including aerial surveillance and 
other sensors where practical. We work closely with the DHS 
Science and Technology Directorate to continue to identify and 
deploy additional technologies that make sense, are cost-
effective, and produce a good result.
    In regard to our efforts to ensure the security of goods 
and materials entering the United States, Customs and Border 
Protection has deployed over 6,000 personal pager-sized 
radiation detectors to our ports of entry. I think it is 
important to note that on March 1, as these 22 agencies came on 
board Homeland Security, the day before that the Customs 
inspectors had the detection monitors, but the INS inspectors 
did not. The first day, as they came over, they were deployed 
to everyone who are inspectors on our borders.
    We also deployed 112 large-scale, non-intrusive inspection 
systems at our air, sea and land border ports, and additional 
systems have been ordered. We are also testing and deploying 
other technologies, including portal monitors and isotope 
identifier devices that will help inspectors conduct non-
intrusive inspections quickly and efficiently.
    We are employing and refining risk-based targeting systems 
to incorporate intelligence and target unusual, suspect or 
high-risk inbound and outbound shipments for intensive 
examination. This is our Container Security Initiative, 
combined with others, that will help us to target the cargo of 
risk coming to the United States.
    Customs and Border Protection has successfully required 
airlines to submit passenger manifests to our advanced 
passenger information systems prior to departure. We hope to 
issue regulations by October to require advanced provision of 
electronic information for all modes of transportation. 
Finally, Customs and Border Protection's Automated Commercial 
Environment, or ACE, will improve the collection and sorting of 
trade data, expediting trade and enhancing our targeting of 
high-risk cargo.
    Technology is a critical tool that enables the hard-working 
men and women of the Department of Homeland Security to balance 
our national security imperative with the free flow of goods 
and people across our Nation's borders that form the essence of 
our culture and values here in this country.
    We look forward to an important partnership with this 
Committee, as well as the State and local and private partners 
that help us to implement these initiatives and to comply with 
the mandates that Congress has given to us.
    Thank you for this opportunity to appear before this 
Committee.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Kyl. Well, thank you very much, Secretary 
Hutchinson. I will begin by asking you a couple of questions, 
and would ask all of the members of the panel to address your 
questions to Secretary Hutchinson and if he needs to defer to 
one of his colleagues at the dais, then he will do so.
    In your testimony, you note the force-multiplying nature of 
technology, and I especially appreciate that at the border 
between Mexico and Arizona where we have such vast stretches of 
land that it is really impossible for Border Patrol agents to 
secure that border by their mere presence at all times. As a 
result, they are using technology.
    Since we are going to be there this weekend and see some of 
this firsthand, and also recognize the vastness of the area 
that needs to be covered, perhaps you could talk a little bit 
about what you have learned about the department's deployment 
of technology and what you think we might be looking at in the 
future to use this force-multiplier at our border.
    Mr. Hutchinson. Thank you, Senator. Technology is critical 
if we are going to protect our borders between the points of 
entry, in particular. I am delighted that Congress gave the 
Homeland Security Department a Directorate of Science and 
Technology, an R and D shop, and I envision even our Border 
Patrol agents out there identifying technologies that might be 
helpful, or industry applications that will be reviewed by the 
Science and Technology Directorate to see if they are 
appropriate to be deployed.
    At present, we are using aerial flights, of course, but 
also motion sensors. And then, in combination with that, we 
have the integrated surveillance and intelligence system that 
has cambers on poles that are triggered by sensors that are 
monitored. That allows the Border Patrol to monitor what is 
happening in the open spaces and to be able to respond. Of 
course, those are between the ports of entry.
    We have to look at new technologies. Drones have been 
mentioned, unmanned surveillance vehicles that can be used. 
Those have previously been tested by the Border Patrol in a 
pilot study and they declined to use them. I think that we have 
to revisit some of this technology since September 11 and see 
if it has greater application. We have relied upon the Defense 
Department to explore and develop this technology to a greater 
extent and, as they have improved its capability, we have to 
look again to see if there is some capability on the border.
    Chairman Kyl. Thank you. One of the things we will see when 
we go to Nogales, Arizona--Senator McCain and I visited there a 
couple of months ago, and you mentioned the bright, hard-
working people who now work with you at the department. Some of 
these people literally on their own designed a facility for 
large semi-tractor trailer trucks to pass through in a very 
rapid way, permitting them, however, to check for a variety of 
things.
    I won't mention all of the things they can check for here, 
but it looks just like a huge, giant car wash for a truck. But 
I am told, as they proudly pointed out all these different 
kinds of sensors, and so on, that it will enable them to 
rapidly pass the vehicle through, but at the same time be able 
to detect pretty much anything that they would want to try to 
find. So I am looking forward to hearing from some of the folks 
who are actually at the border having to make these things 
work.
    Quickly turning to a couple of different subjects with the 
money that we have made available and just to see if you have 
determined yet how this might be spent or, since you have been 
there such a short period of time, to at least acknowledge the 
issue that we will have to deal with, in the President's 2004 
budget $500 million is available for additional inspection 
technology to increase our border and port security. Do you 
have any knowledge yet as to how the department will be putting 
that money to use?
    Mr. Hutchinson. That money will be handled through the 
Science and Technology Directorate, and we have, I believe, 
Under Secretary-Designate Chuck McQueary, whom I have talked 
with on a number of occasions. That is going to apply good 
standards as to looking at existing technology. That money can 
be used to provide grants to businesses or academic 
institutions to explore technology and test and pilot projects 
for implementation.
    So from the operational standpoint, we will work closely 
with Science and Technology to carry on these pilot projects. 
Some of that will be in the Entry-Exit System because we are 
going to have to obviously pilot areas there and work with 
Science and Technology to make sure we get the right system.
    Chairman Kyl. One other item of expenditure. In our 
homeland security 2004 budget outline, we have a comment that 
true homeland security requires technology that guarantees 
real-time information-sharing, improves response time to detect 
and respond to terrorist threats, and improves decisionmaking. 
We go on to talk about the inclusion of the Chimera 
interoperable data system to help facilitate that purpose.
    Even though the law that the President signed last May 
didn't outright fund the program and money was not included, 
therefore, in the 2003 omnibus appropriation bill, there was 
$245 million dedicated to IS information technology 
infrastructure. I am wondering if you have determined yet how 
to apply that $245 million and whether any of it can be 
dedicated to the interoperable systems such as Chimera.
    Mr. Hutchinson. The answer is yes. We are working very 
diligently to accomplish the goals of the interoperable system. 
Steve Cooper is our chief information officer at Homeland 
Security and I have visited with him, looking at how we can 
accomplish these goals. He brings the expertise in from an IT 
standpoint.
    We have made significant progress and I want to invite my 
colleagues to comment further on that.
    Mr. Mocny. As I understand it, Senator, the 245 is a 
ceiling that we can spend up to in order to supply this 
technology. I think what we are looking at is across the board, 
as the Secretary has mentioned, exactly how to best apply that 
technology.
    One of the things that we have included within our spend 
plan for the Entry-Exit System is an infrastructure increase. 
As noted earlier, biometrics will be part of the entry-exit 
program. We currently don't have the infrastructure in place to 
accommodate that. So I think money such as that $245 million, 
plus portions of the $362 million that we received for entry-
exit, will go for that infrastructure improvement.
    Chairman Kyl. Mr. Hall, anything further?
    Mr. Hall. Yes. There is a review currently underway that 
was mandated that is being jointly done with the Department of 
Justice that is nearing completion and we will be reporting 
back in the May timeframe.
    Chairman Kyl. All right, thank you very much.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Secretary, you have probably heard Speaker Hastert use 
this example and I want to cite it to you as a real flaw in the 
procedure that has been ongoing particularly at our border on 
the south, and that is that at any one location, whether it is 
Nogales or whether it is Laredo, we have any number of stalls 
that every vehicle has to go through. And it is very obvious 
that the bad guys have people sitting in the woods on the hill 
with binoculars checking each of these sites where the vehicles 
are going through.
    Because of the various jurisdictions that are in place at 
the border, the INS folks may be checking one lane and they 
have the power and authority to do certain things, maybe look 
in trunks, maybe not. DEA may be at another location and they 
have power and authority to do certain things, maybe look 
inside the vehicle, maybe ask people to get out, maybe not.
    The people who are sitting on the hill are directing their 
truck drivers or their automobile drivers to a certain number 
of entry points based upon where they have illegal people or 
illegal drugs. The folks are going to that particular location 
knowing that that particular agent can't look in his trunk. I 
know this was somewhat addressed in the Border Enhancement 
Security and Visa Reform Act.
    Have you had an opportunity to address this in the short 
time you have been in your position? What are we doing with 
respect to long term trying to solve this problem?
    Mr. Hutchinson. Senator Chambliss, likewise I have been 
with Speaker Hastert and he has made that comment and there is 
some reality there. Certainly, those who want to bring illegal 
goods in across the border do their own surveillance and they 
look for weaknesses.
    I think from our standpoint, strategically we have to be 
flexible to respond to that. We have to shirt our mode of 
operation so that it is not as predictable, and then I think we 
have taken a good step at the Department of Homeland Security.
    As you know, you had Customs inspectors and you had INS 
inspectors and Agriculture inspectors at each port of entry all 
reporting up to three different port directors, all reporting 
up to three different departments of Government. We have 
combined the inspection services with the Border Patrol into 
the Customs and Border Protection Bureau. So you have clear 
leadership, lines of authority, and you have got the greater 
potential for cross-training that will address some of those 
weaknesses.
    I think, finally, obviously it is intelligence. They try to 
look at what we do. We need to know what they are planning, and 
so we want to be able to enhance our human intelligence 
capability, too, so that we can have effective procedures to 
counter that.
    Senator Chambliss. So is everybody that is going to be 
checking at the border now going to be physically under your 
jurisdiction?
    Mr. Hutchinson. That is correct, through Commissioner 
Bonner, who will be head of Customs and Border Protection.
    Senator Chambliss. That will make a huge difference.
    Second, as you know, one primary focus that I have had over 
the last couple of years is information-sharing between Federal 
agencies as well as vertically down to the State and local 
level.
    Picking up on what Senator Kennedy said and what Senator 
Kyl mentioned there, how are we doing with respect to 
information-sharing with regard to INS, APHIS, everybody that 
is under your control, and the respective law enforcement 
agencies--FBI, CIA, or whoever?
    The CIA and FBI are doing a better job, but it certainly 
doesn't need to stop there. That is just the very, very 
beginning point. I want to make sure that your folks have an 
ongoing relationship at the horizontal level of sharing this 
information across agencies; also, your relationship with the 
State and local folks particular at these borders, where 
intelligence information has got to be shared in real time.
    Mr. Hutchinson. That is the goal that we have and the 
urgency of that is very clear. Substantial progress has been 
made since September 11. The mandate of the President, the 
Attorney General and Secretary Ridge is to make sure that we 
share information. There are some obstacles in terms of systems 
and that is what we have to work with this Committee to 
overcome.
    For example, since September 11 the visa applications and 
information from our overseas consular offices have been made 
available to our inspectors at the border. When you look at 
what the FBI has in their NCIC system and their wanted persons, 
those have been added to the immigration IDENT system.
    This last week, I was at the Newark Airport port of entry 
and the inspector was showing me that they have access to the 
INS data base and they have access to the FBI data base, and it 
has made an enormous difference. These are new accesses since 
September 11.
    The problem is there are two different systems. We still 
need to make them more interoperable, but enormous progress has 
been made. Since January 2002, INS checks have produced over 
4,500 hits on this new availability of records. That is more 
than 300 a month, on the average, of individuals being checked 
that have committed crimes or have some basis to explore 
further.
    Senator Chambliss. The integration of those systems, I 
agree with you, is critical. Are we giving you the resources to 
do that?
    Mr. Hutchinson. I think we are where we need to be right 
now. I think it is important as you look at the commitment of 
resources that we get organized, we have a good plan, and we 
have a logical way to evaluate that. So Congress has 
appropriated money to start on these initiatives and we report 
back as to the progress that we are making and continue to 
evaluate it.
    Senator Chambliss. Thank you.
    Chairman Kyl. Thank you.
    Senator Feinstein?
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I just wanted to quickly followup on something Mr. 
Chambliss said. The street name for the people he is referring 
to are called spotters, and I have been to the border at Otay 
Mesa twice and watched the spotters work. In the last 
administration, I weighed in as heavily as I could to try to 
create an effort to do something about it and it always came 
back legally that there was nothing the department could do.
    I suspect that some of them are legally directing traffic. 
I suspect that others are illegally, when contraband comes 
across, diverting that traffic to an overcrowded area where 
they know that truck can go through. But it is a problem out 
there and I can even show you where to stand at Otay Mesa to 
observe without being seen. I think it is important that, in 
view of 9/11, we take another look at that issue.
    I wanted to ask you for a couple of updates in two areas. 
One is the entry-exit area and the other is visa waivers. The 
bill that we passed in 2000 requires that automated entry-exit 
systems be deployed at all land and sea ports by December 31, 
2003--those are ports of entry--at the 50 largest land ports by 
the end of 2004, and all land ports of entry by December 31, 
2005.
    Are you on track? What problems do you find? Is this 
doable?
    Mr. Hutchinson. There has been a substantial amount of work 
that has gone into that and after I make some comments, I would 
like to ask Bob Mocny, who has worked on that very closely, to 
add to my comments.
    They have worked in a planning arena. The biometric 
component has been added to that, which adds to the complexity 
but also the effectiveness of the program. It is now over at 
Homeland Security. We are going to do our own measurements and 
move very aggressively on it.
    We believe that the first deadline of entry-exit 
information at our airports and seaports can be met this year. 
The greater challenge will be the 2004 and 2005 deadlines of 
the land ports of entry because that takes new systems, new 
infrastructure likely to be built, and systems that are not 
even in existence today. We are going to more closely evaluate 
that and report back to Congress as to where we stand on that 
and where we stand in relation to the deadlines. We believe 
there is an urgency there. We are going to work very hard, but 
there are many challenges there.
    Bob?
    Mr. Mocny. Thank you, Mr. Under Secretary.
    As the Under Secretary mentioned, we plan to meet the date 
for December 31, 2003, for the Entry-Exit System. What we will 
buildupon is what Congress also mandated as of October 1, 2002, 
for the visa waiver program. So we are currently collecting 
arrival and departure data for all visa waiver passengers 
arriving to and leaving from the United States. We will 
buildupon that to meet the 2003 date, December 31.
    But again I will reiterate the challenges for the land 
border are daunting, especially when you talk about the 50 
largest land border ports of entry--some of the environmental 
laws that apply, some of the infrastructure improvements that 
we will have to take care of--without doing some of the things 
that we have talked about here which are backing up traffic. We 
have to make sure we have an efficient flow, at the same time a 
secure flow.
    Senator Feinstein. Let me, if I might, followup on that and 
ask you about the visa waiver. I believe there are 27 countries 
and about 23 million people that come in without a visa, and 
nobody knows if they leave again.
    Can you say that that is no longer the case?
    Mr. Mocny. Again, yes, we collect the arrival and departure 
records of all visa waiver applicants at this point.
    Senator Feinstein. So you know if somebody comes in and 
doesn't leave? You know that?
    Mr. Mocny. Well, yes. We would have an exception report 
that would tell us who hasn't left.
    Senator Feinstein. And then what happens?
    Mr. Mocny. Well, it is a resource issue about applying the 
appropriate resources to go and find that individual.
    Senator Feinstein. You are not saying nothing happens?
    Mr. Mocny. No, I guess I am not saying nothing happens, 
Senator. One instance I know for sure is that we have had some 
visa waiver applicants encountered as part of the NSEERS 
process and we have been able to deny their entry. But as far 
as immediately understanding when a visa waiver applicant has 
not left the country, at this point we are not in a position to 
be able to go and find that person immediately. That is why we 
want to work on expanding the program to do so, but we are 
collecting arrival and departure data as we speak.
    Senator Feinstein. I know how difficult it is, so I am not 
trying to be critical. Of these visa waivers, how many has your 
system shown up do not leave the country?
    Mr. Mocny. I don't have that number with me today, Senator. 
I could provide that to you.
    Senator Feinstein. Well, I would like to ask some questions 
in writing, then, if I might, about that particular program.
    Let me ask you about false documents. Current immigration 
law doesn't require all travelers, such as U.S. citizens and 
Canadian nationals, to present documentation when entering our 
country at land border ports of entry. But one concern that has 
been raised is that aliens might falsely claim United States or 
Canadian citizenship and circumvent the Entry-Exit System.
    What changes, if any, to administrative law, treaty 
obligations or current practices will be required to address 
this potential limitation of the Entry-Exit System?
    Mr. Hutchinson. There is going to have to be a substantial 
review of our working relationship with Canada and our other 
partners that have traditionally had minimal documentation to 
enter the country. As part of the Entry-Exit System, Congress 
is requiring travel documents to have a biometric qualifier 
that is readable and that has a level of integrity, forgery-
proof.
    So when that is in place, that will impact all of our 
partners and we are currently discussing these relationships 
with the State Department and others, and with our Canadian 
counterparts. There are going to have to be some changes in 
order to accomplish those objectives.
    Senator Feinstein. I note that the GAO report entitled 
``Border Security: Challenges in Implementing Border 
Technology'' on page 3 mentions that they have found four 
different scenarios in which biometric technologies could be 
used to support your operations. They make the point that 
certain biometric systems don't help with forgeries, et cetera, 
and others do. I am sure you are probably aware of that and 
whatever system you choose will be one that supports being able 
to get at forged documents.
    Mr. Hutchinson. Absolutely. That is the mandated objective 
and if we can't accomplish that, then we have wasted a great 
deal of effort.
    Senator Feinstein. Right. Thank you. Thanks, Mr. Chairman.
    Chairman Kyl. Thank you.
    Senator Kennedy?
    Senator Kennedy. Thank you very much.
    Looking at false documents, Secretary Hutchinson, I can 
remember my good friend, Al Simpson, having hearing after 
hearing on this and the one conclusion he came to, and I 
agreed, is unless you have a temper-proof birth certificate, 
you are not really going to be able to get a handle on the 
legitimacy of these documents.
    The idea of getting a tamper-proof birth certificate and 
for the Federal Government to require this from every town and 
village in this country is really unthinkable, although he 
talked about it and tried to do it, quite frankly. So you are 
facing a daunting challenge, and you have got a lot of able, 
gifted people in your department and if they have other ideas 
about how to get back to that root document, it is just 
incredibly important. Otherwise, you are going to get whipsawed 
through this.
    You talked about risk management, I think, and you talked 
about the visa waiver countries. The visa waiver countries have 
to have, as I remember, 96-percent return in order to continue 
to be part of the whole program. I think it was 96; there was a 
3- or 4-point difference. That has to be maintained or they 
can't maintain that.
    The basic point, as I remember, when it was developed was 
to--as you mentioned, you are talking about risk management and 
the allocation of personnel. These are people from these 
various countries that come back to the country and therefore 
they pose less of a challenge in terms of following people that 
are coming into the United States and overstaying their visas.
    They present less of a challenge, and therefore you need 
less personnel in terms of monitoring this and setting up shop 
in these various countries. That is the principal reason that 
program had been set up and worked reasonably well, I think, 
over the period of time. It is constantly being reviewed, but 
I, like others on the Committee, want to continue to make sure 
that it is doing what it should.
    There are two areas I want to cover and that is the 
training of personnel that you have and how you are going to 
keep good personnel. It has come to our attention that a lot of 
the very skilled, trained personnel in immigration are going 
out to other agencies.
    How are you able to really keep the best of the personnel 
that can really help you do the job? What are the training 
methods, if you could review those? You can provide this in 
greater detail, but this is, I think, very important.
    Then I want to get just finally to the issue of risk 
management. Your response to an earlier question about the 
border--we have got 130 million vehicles that come into the 
country every year, and 500 million people moving back and 
forth. I always thought that the terrorists are the problem, 
not immigration. The real question for you people is how you 
get the difference on it using the technologies.
    I am interested in how you are setting up these risk 
management decisions. I mean, that is going to be key in terms 
of trying to do it. Maybe some of this is classified. I don't 
know, but how do you do it? We don't want to have others that 
want to try and break through the system listen to you and then 
find out how to avoid it. but as much as you can tell us on 
what you are doing on the training, what you are doing to get 
good people to stay in the department, and also if you can talk 
a little bit about the risk management, those are two areas I 
would like to just cover in the time that I have, please.
    Mr. Hutchinson. Thank you, Senator Kennedy. In reference to 
the visa waiver program, the Justice Department started the 
review and we are going to complete it as to some of the 
countries and their compliance rate, whether there needs to be 
any adjustment on that, and we owe some reports to Congress on 
that.
    In reference to the training, you hit it right on that this 
is essential to keep a motivated work force, to keep them on 
top of the technological skills that are necessary. I am 
delighted that in the Border and Transportation Directorate, in 
addition to the agencies that are out there on the front line, 
we have FLETC, which is the Federal Law Enforcement Training 
Center. So we want to utilize them, as these agencies have 
done, from TSA to Customs to INS, to make sure that training is 
at a high quality.
    One of our challenges for the worker is that we have 
disparate pay scales for the different agencies that have come 
on board, the inspectors for Customs versus INS, and the 
Agriculture inspectors. Janet Hale, our Under Secretary for 
Management, will be working with the employees over the coming 
months, having hearings and looking at ways that we can bring 
this together. This is a congressional mandate and we owe a 
report back, I believe, in November, as to how we are going to 
be reconciling these different pay scales.
    Finally, on risk management, this is an essential part of 
the strategy that we have to implement. In reference to the 
cargo side, we have the Container Security Initiative that 
gives us manifest information for cargo coming into this 
country 24 hours in advance to the time that it is loaded on 
the foreign port. If it is Hong Kong or Rotterdam, we get the 
information in advance going to the national targeting center 
at Customs, and then you have the analysts that look at this 
cargo and they have a rules-based system that asks the 
questions--is it a trusted supplier, what is the record, what 
kind of cargo is being represented--a whole host of rules. You 
give it a scale and you identify the risk to it.
    The objective is not to inspect one hundred percent of all 
the cargo coming to the United States, but a hundred percent of 
the at-risk cargo. So that is the system. I saw it demonstrated 
in Newark, again, when I was there. It is not perfect by any 
means, but it certainly moves us in that direction.
    We are doing the same thing for at-risk people. One of the 
responsibilities is we look at the visa issuance overseas and 
take a greater role in making sure that it does not go to high-
risk people.
    Senator Kennedy. Also, just with regard to people, you want 
to make sure that the visa that you are giving to the person is 
actually the person that has been cleared and the one that is 
arriving is the person that goes back to the country. That is a 
continuum and we tried to spell that out in the legislation, 
and that has been area that has been a challenge in the past 
and that is absolutely true about the people, as well.
    Well, if you could just supply the other training programs 
and how you are setting up this training to get your people up 
to speed on this, I would be interested in what the department 
is doing.
    Mr. Hutchinson. I would be happy to.
    Senator Kennedy. Thank you.
    Chairman Kyl. Thank you. To just add on what Senator 
Kennedy was just talking about, to retain the Border Patrol 
agents, for example, who speak Spanish by their required 
training and are not paid particularly well compared to some 
other law enforcement agencies who constantly raid the Border 
Patrol for these experienced agents, I think that is also 
referred to in Senator Kennedy's comments and we would like 
more information on that, too.
    With my Republican colleagues' indulgence, I would like to 
turn next now to Senator Leahy.
    Senator Leahy. Mr. Chairman, I thank you and thank you 
again for your courtesy. I especially wanted to hear what 
Secretary Hutchinson had to say, although I should also note 
that any time I have called the Secretary, he has been 
immediately available and I have always felt that he was 
willing to answer questions. I appreciate that.
    Mr. Hutchinson. Thank you, Senator.
    Senator Leahy. I think it comes from his experience here on 
the Hill when he was faced with having to ask similar 
questions, and all of us do our jobs better when they are 
answered.
    I mentioned earlier what a massive undertaking the 
Department of Homeland Security is--170,000 employees, 22 
different agencies. One day they are all separate; the next day 
they are one agency. It doesn't say anything that you don't 
already know that a lot of those 170,000 employees are not 
quite sure how their jobs changed on March 1 or what their 
future is. They are focused first and foremost on protecting 
America, not just on their job security, but you know it has to 
be in the back of their minds and that can affect job 
performance.
    What kinds of steps are you taking to communicate with the 
rank-and-file in the DHS to assure them that questions they 
might have on their own status don't affect the mission of 
improving our domestic security, a mission that we all agree 
upon?
    Mr. Hutchinson. It is essential to give them the facts, 
communicate with them clearly. We are doing it in a couple of 
ways, obviously through Internet communication, but Secretary 
Ridge has been very engaged in employee town meetings both in 
Washington and in Miami. I have done the same thing, listening 
to them, but also trying to assure them that when they came on 
board March 1, same mission, same pay, same job responsibility. 
The only issue was whom they would report to and there were 
minimal changes there.
    As time goes on, there will have to be more changes that 
are made. We want to work with both the union leadership as 
well as with all of the employees to make sure there is a good 
line of communication both ways. We don't want them to worry 
about it, and I think that there is really not reason to worry. 
Congress has protected it, rightly so, for a year to make sure 
no one is displaced. But we are still growing in numbers and so 
I don't think there will be a displacement; there will just 
simply be effective reorganization, I would trust.
    Senator Leahy. Well, that goes to another issue. 
Incidentally, I would invite you or your designee at any time 
to come up to Vermont. As has been pointed out, it is a tiny 
State, but we------
    Mr. Hutchinson. Can I get some syrup?
    Senator Leahy. Yes, sir, I will give you that anyway, as 
you know. But come on up. We have the northern border. Senator 
Kyl spoke about agents who speak Spanish. Right where we are, 
we are more apt to find them speaking French.
    But we have the border. Actually, we have a couple of the 
alien tracking facilities and others that we have in Vermont. 
You see some very dedicated people, but you also see the kind 
of problems we have; on the one hand, keeping commerce and 
families moving back and forth on a border which they think of 
almost being like a border between two States, and at the same 
time, as we saw, one of the terrorists came down on the 
northwest border with designs against the Space Needle in 
Seattle. So there are all the different issues there.
    But I look at the fact that the Justice Department 
Inspector General recently reported that 26 percent of the INS 
inspections work force was hired in fiscal year 2002, showing a 
lot of attrition and change. Now, this is a very important 
fact. If you have 26 percent of it in 1 year, are you focusing 
on the fact that you don't want attrition beyond the normal 
attrition you always face because some of these are highly 
skilled jobs?
    Mr. Hutchinson. Absolutely, and we want to be able to keep 
the morale up. I think that some of the factors previously were 
morale, a tremendous amount of responsibility. Congress has 
helped on the pay scale side of it, and then we also had TSA 
setting up and that was a factor in losing some Border Patrol 
and INS personnel. I think it has settled down substantially 
since that timeframe because TSA is organized now and 
functioning. They are not having to have that huge hire-up.
    And then, second, the fact that Homeland Security was 
created, I believe, is a motivating factor and the mission is 
renewed. But these are things that I assure you we are 
attentive to because we want to keep a motivated work force.
    Senator Leahy. I don't mean to keep harping on the northern 
border, but we always focus on the southern border, and rightly 
so, but they are entirely different things. We are not having 
people streaming across our northern border looking for jobs or 
a better standard of living. They are very happy with the 
standard of living in their own country, in Canada.
    We face other issues and I think because of that, well 
before September 11, we kind of neglected the northern border. 
We always worried about what was happening on the southern 
border. We have proposed increases. S. 22, for example, is 
pending, the Justice Enhancement and Domestic Security Act. We 
propose additional increases in the Border Patrol.
    I mentioned the helicopter that came down, and in this case 
a group of snowmobilers spotted the bales of marijuana, 250 
pounds, being tossed out. Well, we can handle the issue of the 
marijuana. I am far more concerned, and I am sure you are, too, 
if that been explosives, weapons, or terrorists coming down, 
knowing that they then could drive to New York City or Boston 
or several of our major ports in literally a matter of a very 
few hours from where that was.
    Do you support our efforts to authorize additional border 
security personnel?
    Mr. Hutchinson. Well, I support what you have done in terms 
of increasing the presence at the northern border. I want to 
make sure I understood the question correctly.
    Senator Leahy. Let me put you in a more difficult position, 
if I might, and you may not want to answer this, but I want you 
to think about it. The President's budget for the Bureau of 
Customs and Border Protection calls for less than a 3-percent 
increase over his budget for those functions in fiscal year 
2003. That is not going to even cover inflation.
    Is the status quo in terms of personnel on our northern 
border adequate?
    Mr. Hutchinson. Let me answer it this way, Senator, with 
great respect. We certainly need to finish the deployment of 
more Border Patrol agents on the northern border. There is an 
increased need there. Since February 8 of this year, 220 agents 
have been deployed to the northern border, so we are continuing 
to do that. There needs to be an increase.
    In reference to the overall budget, which I think is the 
essence of your question, my figures show that there was a 
little bit more of an increase in the overall homeland security 
budget. The discrepancy might be the fact that TSA obviously 
had some enormous startup costs that were not reflected and 
needed in the 2004 budget.
    I think it is important that Homeland Security gets an 
opportunity to organize effectively, then to evaluate our 
needs, and we will report back to you. So I think we are where 
we should be right now, but obviously we need to continue to 
evaluate it with you.
    Senator Leahy. Well, Mr. Chairman, I thank you for the 
time.
    I would say, Mr. Secretary, I know you obviously are 
constrained by what is in the President's budget and I 
understand that. I would expect that of anybody speaking for 
the administration, but please understand that I and many 
others feel that we are not doing enough on the northern 
border. I would like some time perhaps in the near future where 
you and I might discuss this because I really feel strongly 
that we have some problems that could come back to bite us both 
from a security angle, but also from the question of just 
keeping the free flow of commerce between two great nations.
    Mr. Hutchinson. I welcome that opportunity, Senator.
    Senator Leahy. Thank you. Thank you, Mr. Chairman, and 
again I applaud you and the other Senators for having this 
hearing. I think it is one of the most important ones this 
Committee will do.
    Chairman Kyl. Thank you, Mr. Chairman--well, I am used to 
calling you ``Mr. Chairman.''
    Senator Leahy. Oh, I love it.
    [Laughter.]
    Chairman Kyl. There is a University of Texas study now a 
few years old and we need to be sure and get that to you, 
Secretary Hutchinson, if you haven't seen it. It calls for 
about 16,000 Border Patrol agents on the southern border and 
doesn't even begin to address the number that would need to be 
put on the northern border to secure that border. That was a 
pre-9/11 study, so it is the kind of thing that we would maybe 
appreciate to get your feedback on.
    It is probably not possible to achieve that level any time 
soon, but Senator Feinstein and I have sponsored legislation 
that was adopted that called for adding 1,000 new agents each 
year, net. We are now beginning to fall behind that again, so 
perhaps we can revisit that.
    Senator Craig?
    Senator Craig. Well, Mr. Chairman, you in one of your 
questions and Secretary Hutchinson's response was one of my 
questions as it relates to the vastness of these borders beyond 
points of entry or between points of entry and how you deal 
with it.
    I come on the heels of Senator Leahy's questions to react 
very similarly. The uniqueness of these borders, north and 
south, are very real. The port of entry that Idaho has is one 
of many. There is an official one and then there are hundreds 
of small, back-country wilderness roads, logging roads, because 
that relatively small border expanse compared to Texas that 
Idaho has against the Canadian border is in many instances 
wilderness or very close to it.
    But people traffic it and it is nearly impossible to 
control it, patrol it, shape it in any given day or hour unless 
you just had a phenomenal work force that is probably not that 
justifiable at the moment, compared to the southern border or 
more concentrated areas where heavy commerce is moving, 
although the commerce between the Pacific Northwest, Idaho 
being a conduit, has increased rapidly over the last couple of 
years.
    I guess my question would be, briefly, could you talk about 
your working relationship with Canada, because if you gain 
access through Canada and your intent is to come into the lower 
48, my guess is you can get there without going through a port 
of entry and you can probably get here without being detected 
if you spend a bit of time studying the terrain, whether it is 
the State of Washington, Idaho, Montana or Vermont. Those 
northern borders are in many instances obscure, almost dense 
forested wilderness areas that have very little patrol.
    Mr. Hutchinson. Thank you, Senator Craig. It is important 
that we make sure we protect the northern border and devote 
resources to it. In reference to Border Patrol agents, we have 
increased them substantially on the northern border. Eighty-one 
percent of the requirement for the northern border, a goal that 
Congress gave us, has been met for 2003. We are going to 
continue to make that deployment.
    In reference to our relationship to Canada, it is 
excellent. Both while I was at the DEA and here, I have had a 
great relationship with the Royal Canadian Mounted Police. 
Secretary Ridge has met numerous times and developed the Smart 
Border Accord with Canada that has a number of different points 
to it, including shared information, including some of the fast 
lanes at our ports of entry, but also the information for our 
rural areas, our isolated areas. We have to know what they 
observe on their side, what the risks are, threats are, and 
then we have to share that information. The relationship is 
good. The challenge is great. We are going to continue to focus 
on that.
    Technology is important. We have enhanced the number of 
helicopters that the Border Patrol has available and their 
presence is becoming more significant on the northern border 
and needs to continue to do so.
    Senator Craig. Do they do a good job screening those who 
enter Canada from foreign countries? Do they have a fairly 
rigid system of control, application, tracking of those coming 
in, because part of my question, Mr. Secretary, was if you can 
gain access through Canada--that means to Canada from outside--
and your intent is to come to the United States through that 
conduit and you spend any time trying to do it, my guess is 
there is probably a pretty good chance you can get here without 
going through a port of entry.
    Mr. Hutchinson. It is a significant area of concern. I know 
that Canada has tightened up their entrance requirements and 
their protective systems since September 11. It was a wake-up 
call for us and Canada, but there is much work to do there. We 
are continuing to work on that, and obviously the interest of 
both is to make sure we don't stop the flow of commerce. That 
is their objective and our objective, but they recognize a huge 
security need, so we will continue to work with them.
    Senator Craig. What kind of sharing goes on of information 
of individuals flowing into Canada that for some reason would 
draw attention, or is there any of that kind that they share 
with us?
    Mr. Hutchinson. For example, when I was in Miami--we have 
an exchange with Canadian Customs so that a Canadian Customs 
officer was physically located in Miami working side by side 
our agents because there is a great deal of commerce going from 
Canada down to Miami. The same thing was true in Newark. We had 
a Canadian Customs officer there working side by side. We have 
the exchange there so that we have access to some of their data 
bases and their information through their Customs officers, and 
likewise for our personnel up there. Whenever we are looking at 
our data bases for names and suspects, we can have that 
relationship to exchange information with Canada. So it is 
getting better everyday. There are some real signs of 
encouragement there.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    Chairman Kyl. Thank you.
    Senator Cornyn?
    Senator Cornyn. Given that all 19 terrorists from September 
11 entered the United States on legal visas, would you just 
summarize what both the Department of Homeland Security and the 
State Department have done to address that specific challenge?
    Mr. Hutchinson. The first thing that was done is that 
whenever the consular offices overseas get information on visa 
applicants, that information for the first time has been made 
available to our inspectors at the ports of entry. That was a 
significant breach in communication prior to September 11 that 
has been remedied. That way, you really have a layered 
protection so that now they can screen them closely in the 
overseas consular offices, look at them, interview them, and 
then there is information so that before they arrive at the 
port of entry, they will be again examined. Hopefully, both of 
those checks will keep someone who has harmful intent from 
coming into our country.
    The visa issuance responsibility for regulation and 
training has been transferred to Homeland Security. We are now 
negotiated with the Department of State on a memorandum of 
understanding to accomplish this exchange of authority, because 
they will continue the technical work of issuing the visas, but 
we have the oversight responsibility with people present there 
in some of the overseas offices to make sure that program is 
working effectively.
    Much progress has been made, but it is an ongoing effort. 
We still need to enhance the information in those data bases 
for checks and for a quick response. Now, when those 
applications are made, they go through the State Department 
lookout list. They also go through the FBI and all the other 
checks interagency-wise to try to make sure we detect those 
that might have a harmful intent or a criminal record.
    Senator Cornyn. Knowing what we know now about these 19 
individuals, could the changes that you have just described 
have prevented their entry into the United States?
    Mr. Hutchinson. Well, I don't know if I would want to--I 
would certainly hope so. It would increase the likelihood of 
it. I would add that Senator Feinstein made reference to some 
that were here on expired visas, and that is what the SEVIS 
program, the student visa monitoring program and information, 
will help us with.
    We will know who is here on an expired visa or who is not 
reporting to school when they are here for that purpose. So we 
have enhanced our capability to better protect America and we 
are continuing to do so. But as was pointed out, it is one 
thing to have the information of people who are here visiting 
our country and leaving and maybe they didn't leave in time, 
but it is another thing to have the analytical capability to 
pinpoint them, find them and make sure they leave our country. 
So we are working on each of those levels and it gives us a 
safer America.
    Senator Cornyn. As you know, the United States and Mexico 
are important trading partners and a lot of the commerce that 
flows between our two countries comes across the Texas border. 
And, of course, it is important to the economy not just of my 
State, but to the United States, that we maintain as free a 
flow of commerce as possible. One of the things I know of at 
the State level, because I worked on it when I was attorney 
general, is the establishment of one-stop border inspection 
facilities.
    Could you describe for us from the Federal perspective what 
the Federal Government is doing to try to implement a one-stop 
inspection facility? In other words, notwithstanding the fact 
that Customs and Immigration may need to do an inspection, we 
also need to make sure when a truck comes across that the 
Department of Public Safety in my State, for example, can 
assure that this truck is in a safe condition so as not to 
jeopardize the safety of the driving public.
    Mr. Hutchinson. Let me ask Mr. Woody Hall to respond to 
that, if I might, Senator.
    Mr. Hall. We are doing a number of things. We have always 
had cross-designated inspectors and we are going to put more 
emphasis on that training so that folks who come from a 
different background as we stand up the new bureaus can be 
interchangeable.
    We also are working closely with the Department of 
Transportation to see what we can do to improve this 
relationship with the State organizations that need to do these 
safety inspections. And we are also investing in the 
modernization of our information technology infrastructure so 
that we can share this information not only across the bureaus 
within Homeland Security, but as appropriate with other 
departments and local law enforcement agencies. I think all of 
these efforts taken together will help improve the situation 
that you have described.
    Senator Cornyn. Well, I certainly don't underestimate the 
challenge that you have or that our country has in this area of 
trying to strike a balance between our security and commerce. 
Both are important and we need to strike the right balance, but 
I would like to have my staff perhaps talk at a staff-to-staff 
level to try to get some more details.
    I think it is very important that the Federal Government 
work closely with local officials and with State officials to 
make sure that as much as possible we try to remember that the 
commerce aspect of this is also an important element to 
consider and that we do as good a job as we possibly can 
striking that right balance.
    Thank you very much.
    Mr. Hutchinson. Thank you, Senator, and we would be glad to 
visit with you more about that.
    Senator Cornyn. Thank you.
    Chairman Kyl. Senator Cornyn, I agree with you. Because of 
our same issues in Arizona, I remember kidding with then-
Senator Spence Abraham, who, of course, representing Michigan 
at the time, had a border with Canada. He was really irate 
about these 2-minute delays at the border. And I said, Spence, 
2-minute delays? I said we would be happy if we could it down 
to 2 hours at certain points of time.
    So we do have those kinds of issues of accommodating the 
interests both of commerce and recreation, I might add, 
visiting families back and forth, as well as the whole need to 
ensure against contraband, against illegal alien smuggling, and 
certainly against terrorism.
    Secretary Hutchinson, you have mastered a lot in a very 
short period of time. I think what we will do is submit any 
other questions--unless anybody else on the dais would like to 
make a point, submit any other questions we have for the 
record, and we will leave the record open for a couple of days, 
let's say 3 days, so that anybody that would like to submit 
additional questions to you can do so.
    Perhaps after you have had a lot more time under your belt 
and had a chance to digest some of the things that have been 
thrown your way, you could come back and report status to us at 
that time. In the meantime, we would invite you to be sure to 
let us know--as you discover things that we could help you with 
that we could either put in appropriations bills or give you 
more authority or whatever might be needed, please convey that 
to us because our two Subcommittees and the full Committee are 
really dedicated to helping you be effective in your job.
    We are just very glad you are there and, as I said, your 
very quick command of a lot of details is very, very 
impressive. We appreciate Mr. Mocny and Mr. Hall for being with 
us today. Thank you very much. All the best.
    Mr. Hutchinson. Thank you, Senator. Thank you, Committee.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Kyl. Now, our second panel--and we promise not to 
take as much time speaking from dais here and we will hear from 
our witnesses a little bit more quickly--is comprised of two 
people and I will ask them to come forward as I am introducing 
them.
    One is Nancy Kingsbury, who is the Managing Director for 
Applied Research and Methods at the General Accounting Office. 
In this capacity, she manages the GAO's advanced analytic 
staff, including economists, computer engineers, statisticians, 
and other scientific experts. She has done a great deal of work 
in the entire area of homeland security. She will be 
accompanied by Richard Stana, who is Director of Homeland 
Security and Justice at GAO.
    In addition, Stephen Flynn is the Jeane Kirkpatrick Fellow 
in National Security Studies at the Council on Foreign 
Relations. He is the Director of the Independent Task Force on 
Homeland Security Imperatives, which is commonly referred to as 
the Hart-Rudman Commission, and was a consultant on homeland 
security for the previous Hart-Rudman Commission on National 
Security, and as I mentioned before, has also testified here 
and probably was listening carefully when we talked about 
moving our perimeter out further and getting more cooperation 
from people abroad even before we get to the border here as the 
last measure of defense. I read your testimony. Thank you.
    So, Ms. Kingsbury, let's begin with you, and then I will 
turn to Stephen Flynn. Since we do have two votes in about 40 
minutes, we will try to move forward as quickly as we can.

   STATEMENT OF NANCY KINGSBURY, MANAGING DIRECTOR, APPLIED 
 RESEARCH AND METHODS, GENERAL ACCOUNTING OFFICE, WASHINGTON, 
D.C.; ACCOMPANIED BY RICHARD STANA, DIRECTOR, HOMELAND SECURITY 
             AND JUSTICE, GENERAL ACCOUNTING OFFICE

    Ms. Kingsbury. Thank you, Mr. Chairman.
    Chairman Kyl. I think you have been advised to limit your 
testimony to 5 minutes.
    Ms. Kingsbury. Yes, sir.
    Chairman Kyl. Thank you.
    Ms. Kingsbury. I will whiz right through it.
    Thank you for accepting our longer statement and we are 
very pleased to be here. Rich Stana does most of our work on 
our immigration issues in GAO and so he is here to represent 
that work as well.
    Facilitating the flow of people while preventing the 
illegal entry of unwanted travelers at our many ports of entry 
requires an effective and efficient process that authenticates 
the traveler's identity. Based on our work, we believe that 
biometric technologies--that is, technologies that can be used 
to verify a person's identity by measuring and analyzing his or 
her physiological characteristics--have a lot to offer over the 
current paper document examination and interview processes to 
facilitate travel while protecting our borders and also 
facilitating commerce.
    That said, it is important to understand that technology is 
only a part of the solution. Effective border security at ports 
of entry requires technology and people to work together to 
implement a decision system that is grounded in well-developed 
and implemented policies and procedures.
    The Department of Homeland Security faces huge challenges 
to implement the requirements of recent legislation to improve 
border security, and I think, Mr. Chairman, you have cited some 
of the numbers--440 million border crossings, 300 designated 
ports of entry, et cetera. I don't need to belabor the 
magnitude of this task.
    Last year, under a pilot technology assessment process 
directed by the Congress, we evaluated the utility of a variety 
of biometric technologies for use in border security. Our 
report, which, as you can see, is fairly thick, provides 
considerable detailed information on the maturity of the 
technologies and on the policy context in which they would be 
used for border security.
    In the end, it appears to us that fingerprint recognition 
and facial recognition, perhaps in combination, are the most 
mature of the technologies for this purpose, and that iris 
recognition held considerable promise as a unique identifier 
for future use, but it hasn't really been tested yet.
    Even in the case of fingerprints and facial recognition 
systems, however, there are issues of scalability that will 
require considerable testing and development to bring to the 
point where hundreds of millions of identity checks annually 
are feasible, accurate and efficient.
    By way of an example, the current fingerprint system, while 
now automated and very efficient, only contains about 60 
million records. So when you are talking about that many 
border-crossings and that many checks, you have got a real 
issue of scalability, we think.
    Biometrics have been used in border control environments 
for several years. In the U.S., INS has used hand geometry in 
its INSPASS system at U.S. and Canadian airports to facilitate 
the movement of trusted travelers, and INS has implemented a 
border-crossing card, as we have talked about this morning. 
Several foreign governments have also adopted limited programs 
of biometric-based identification for transit of travelers 
across borders, but they are all on a fairly small scale.
    While biometric technology is currently available and used 
in a variety of applications, questions remain regarding the 
technical and operational effectiveness of biometric 
technologies in applications as large as border control.
    In addition, a number of other issues need to be 
considered--the system's effect on existing border control 
procedures and people, including how you transition from one 
type of system to another. The costs and benefits of the system 
need to be assessed. We did some analysis based on some 
assumptions. I think Senator Feinstein referred to our 
scenarios in her question a few minutes ago.
    Suffice it to say we are talking billions of dollars just 
to implement biometrics in this application. We believe it is 
very important that a thorough and documented concept of 
operations be created and examined before these decisions are 
made and before this starts down the path of spending huge 
amounts of money.
    Finally, the system's effects on privacy, convenience and 
the economy also need to be assessed. Representatives of civil 
liberties groups and privacy experts have expressed concern 
regarding the adequacy of protections for security, data-
sharing and identity theft, and about the potential for the 
evolution of secondary uses and so-called function creep.
    These issues can be addressed, and should be, early in the 
development of a concept of operations. Because there is no 
general agreement yet on the appropriate balance of security 
and privacy, or to go back to Senator Craig's point, security 
and commerce, further policy decisions are clearly required. 
And I am very encouraged by the interest of this Committee in 
participating in that process because I think that is very 
important.
    Because visa policies are often reciprocal with other 
countries, introduction of new requirements could stimulate 
additional new requirements on American travelers to other 
countries. This is another policy issue that probably needs to 
be addressed.
    In any event, it is important in that regard when we do 
this that countries work together to seek a common standard for 
the introduction of biometric technologies at border-crossings. 
The inability to do that is likely to escalate the variety of 
equipment and processes needed at our borders and consulates, 
potentially further increasing costs.
    Finally, Mr. Chairman, we have some ongoing work on current 
practices for screening travelers at land border crossings that 
offer some information about potential challenges faced by the 
Department of Homeland Security as it introduces new technology 
at our borders. You and your colleagues have talked about a few 
of these.
    We have found problems with the integrity of the inspection 
process that permits entry into the country with false or even 
no documents, and some inspection processes are inconsistent or 
incompletely implemented. Current technology is sometimes 
cumbersome or not available. There was some comment earlier 
about multiple entries into data systems. Workload demands 
prevent meaningful processing or sharing of available 
intelligence.
    And last but not least, the merger of INS and Customs 
brings together inspectors that to date have been trained in 
two separate academies, using different curricula, and on-the-
job training is often pushed aside by the pressures of 
inspections itself. They have got a huge job ahead of them.
    Thank you for your attention. I would be happy to answer 
any questions.
    [The prepared statement of Ms. Kingsbury appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much for your testimony.
    Mr. Flynn?

  STATEMENT OF STEPHEN E. FLYNN, JEANE J. KIRKPATRICK SENIOR 
    FELLOW IN NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN 
                 RELATIONS, NEW YORK, NEW YORK

    Mr. Flynn. Thank you, Mr. Chairman. I am delighted to be 
back here today, and this time you are in the Chair. Last time, 
it was Senator Feinstein when I testified here with Senator 
Rudman in November of last year. I would like to be able to 
submit my testimony into the record and maybe just make a 
couple of, I think, important points to inform our process 
here.
    One, overall, of course, a conclusion of the Hart-Rudman 
task force report that I had the privilege to direct was that 
America remains dangerously unprepared to prevent and respond 
to a catastrophic terrorist attack on U.S. soil, and in all 
likelihood the next attack will result in even greater 
casualties and widespread disruption to American lives and the 
economy.
    The need for immediate action is made more urgent by the 
prospect of the United States going to war with Iraq and the 
possibility that Saddam Hussein might threaten to use weapons 
of mass destruction on America. We said that in October. In my 
view, that chilling finding still holds true today. It speaks 
to the enormous importance of what this Committee is looking at 
here today because we know the new front-line warriors in this 
new challenge that we are confronting turn out to be these 
rather mundane folks, in the traditional sense of things--INS 
agents, Border Patrol, Coast Guard men and women, now all put 
together under this new department.
    The scale of the challenge, of course, is enormous, as has 
been cited by the figures here today. Secretary Ridge put it 
well when he assumed his new mantle as Secretary: getting right 
the job about a billion times a year. When we are talking about 
the total numbers of front-line field agents, the folks who are 
really doing the meeting and the greeting and the checking, we 
are talking about a number of people that is smaller than the 
NYPD, if we take the TSA portion out of it.
    I mean, this is an incredible challenge and if we are not 
seriously talking about the issue of resources, we really are 
just engaged in talking, because this is an issue of such vital 
nature and it requires clearly a long-term investment that I 
don't believe we are pursuing with the level of zeal that we 
must.
    Just by putting it in context, Secretary Rumsfeld testified 
last month before the House Appropriations Committee that he is 
spending $5 billion protecting U.S. bases from a would-be 
terrorist attack. He also said that 20 percent of those bases 
he didn't even need because he doesn't have the force structure 
to fill them. So he said we are spending about $1 billion a 
year protecting bases essentially that he doesn't need.
    We are talking in the area of seaport security, for 
instance, in this upcoming bill on the order of $100 to $150 
million. We are not really getting the scale right. This Nation 
depends on trade and commerce, and it depends on being a 
globally engaged, open society. The folks who are at the front 
lines of managing the risk of that at our ports of entry are 
woefully understaffed, working with obsolete technologies, 
inadequate support for training, and are just simply not up to 
the challenge, not because of desire, but because of the 
commitment of the national Treasury, frankly, that we haven't 
put at their disposal.
    Now, how do we get a handle on this job when it is a 
billion a day? And this is a key point that I guess I want to 
drive home. It shouldn't be a balance, security versus trade; 
the two are symbiotic. The heart of this enterprise, when you 
have a billion checks to make, is about risk management, but 
how do you do risk management?
    Risk management is fundamentally about having sufficient 
intelligence so that you can basically detect what is high-risk 
versus low, and having the opportunity to act on that 
intelligence. The primary tool used in enforcement and the 
regulatory world is what is called pattern recognition; it is 
the ability to be able to pick something out that doesn't look 
right.
    What we saw about the 9/11 folks is that they tried to 
blend in. I spent 10 years looking at the problem of smuggling 
from the Caribbean up and across the southwest border, and what 
you find about good, capable smugglers is they try to blend 
into the real estate. The ability to pick that up is often not 
based on intelligence. It is based on a sharp front-line person 
who says, you know, these goods are coming in on Friday, the 
farmer's market is on Saturday, it takes 3 days to get to the 
market, there is something wrong here. Those are the tools.
    Now, let's get to this key point--commerce and security. If 
the system is inefficient, the border is inefficient, it makes 
the border less policeable. If, because of lack of 
infrastructure, we have bottlenecks in traffic, a fragmented 
trucking industry and virtual chaos, you can't detect, which is 
the only tool we can bring on, given these numbers, the 
aberrant activity.
    So this means that the only way you get toward security is 
to improve the efficiencies at the border, which is about 
building the roads, building the bridges, improving the 
inspection facilities, numbering them with the right number of 
people so that you can detect them out of the normal rhythm of 
commerce.
    What we know about capable terrorists and criminals is they 
try to act like market actors, but they usually never get it 
quite right because they are not market actors. Markets are 
complex places and you can pick them out. It will be the key 
tool, but only if there is sufficient transparency within the 
border setting, and ideally up-front capability, are we going 
to get to that point.
    So it comes down also to this issue of technology, how 
important it is that it must be integrated in an overall 
functional systems approach to managing our borders. If the 
technology is layered on without being adequately prototyped 
and tested and creates inefficiencies that essentially add to 
the chaos of the environment, then those eyes and ears of 
inspectors, the human judgment that is so essential, is just 
awash with numbers.
    I mean, I stood at San Ysidro with INS agents and with 
Customs agents, and I have been across the border with the 
Border Patrol and I have been to Laredo and I have been to El 
Paso and I have been to McAllen, Texas, and Brownsville. In all 
those places, it is the human judgment that still remains key, 
though they need the enablers of the technology.
    In the chaos of San Ysidro--75,000 people herding across 
the border to go work in San Diego--if you can't find the means 
to filter the bad from the good, we are just not going to get 
to where we need to go. So the point, I guess, I would make and 
I hope we can explore a little more in the questions is 
technology is a critical enabler, but it must be looked at by 
an overall investment that rationalizes the way our borders and 
ports of entry work.
    We built our national transportation system for internal 
development, Canada and the United States especially, to ``go 
west, young man.'' All of a sudden we changed that, post-NAFTA, 
onto an axis that went north-south, and the infrastructure 
simply is not there to support that. That contributes to the 
opportunity for organized crime and terrorists to exploit. So 
this is not an either/or; this is a must.
    The conversation going on over transportation, about 
building new roads and building the ports, must have a security 
component in it. An intelligent transportation system can get 
us where we need to go, and a part of the tool, a collective 
approach, versus just simply dropping in specific 
applications--radiation detectors or whatever--must be a part 
of this approach.
    Thank you, sir.
    [The prepared statement of Mr. Flynn appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much. I am going to box that 
testimony up and send it over to the Appropriations Committee 
because that is exactly the kind of point, it seems to me, that 
we need to make to those who are responsible for appropriating 
the funds for these purposes.
    Those of us in border States have been trying to make this 
point for years that it is not only good for our business, but 
would enhance our security, to have an efficient port of entry 
system. So everything you have said makes a great deal of sense 
to me.
    I think, as I said to Secretary Hutchinson, we need to take 
a look at the Customs report of 3 years ago and advance forward 
to today's requirements, have them update that and see what 
they think we need in terms of infrastructure. We have all 
talked about the relationship between people and technology, 
and everybody acknowledges we need both and they have to work 
together.
    It seems to me the key challenge is this, and this is the 
question I would really like to pose to all three of you and 
let me analogize here. Secretary Rumsfeld saw early on that if 
he was to develop an effective missile defense system to 
protect the United States, as President Bush asked him to do, 
he would be long dead and gone by the time it ever even got up 
and running, let alone deployed, if he went through the usual 
system of procurement and acquisition that the military relies 
on.
    So he decided to take what we had, put it together as 
quickly as possible, field a couple of those units, see how 
they worked, at the same time that we are continuing to develop 
other technologies and try to integrate them into a system, so 
that over time we could have a deployable system, but in the 
meantime we would have something to protect ourselves with 
because the need is now and under the old method of 
procurement, we wouldn't have anything for another 10 or 12 
years.
    Now, you have testified, Mr. Flynn, to the immediate need 
to secure our borders. There will be more terrorist attacks and 
we have got to match our resources to the rhetoric. We also 
have to match our programmatic system around here to the timely 
challenge, and this is, Ms. Kingsbury, where I get to you.
    You have properly said that we need to walk before we can 
run. There are a lot of bugs in the technology that have to be 
ironed out before we commit billions to a particular system in 
a particular place, and so on. But we don't have that time, 
clearly. So the question is how we square that circle, how we 
make the best judgments about getting things into the field as 
quickly as possible that are the force multipliers, the 
technology that we know exists and that we are beginning to use 
to do it in a very intelligent way, but in a way that gives us 
some protection in the short run, while not committing errors 
that become costly in the long run.
    So I don't think we have the luxury of waiting. Mr. Flynn 
makes that point. We don't have the luxury of wasting a lot of 
money because this whole thing is going to cost a lot. So how 
do we square that circle?
    Is it possible, for example, that pilot projects, things 
like the laser visa system that is being tried with Mexico and 
the United States, are some of the answers to that? I will just 
ask that open-ended question for all three of you to quickly 
respond to.
    Is my time on here? I don't want to take more time that I 
am supposed to.
    Ms. Kingsbury. It just went green.
    Chairman Kyl. Yes, and I have already taken 3 minutes, so 
knock off 3 minutes of my time.
    Let me start with you, Ms. Kingsbury.
    Ms. Kingsbury. Well, I am not sure that the analogy is 
altogether helpful because that system is protecting against 
something that is likely to be very infrequent, but nonetheless 
I certainly take your point.
    Let me offer an example of the reason why really 
understanding the whole problem perhaps the way Rumsfeld 
understands the missile defense problem--the concept of the 
issue itself is pretty clear. You can have a perfect 
biometric--and let me make it clear none of the biometrics, 
including fingerprints, are perfect--but if you don't also have 
a pretty darn good enrollment system at the outset, with real 
commitment and real resources to that, you guarantee the system 
will fail and you will buy no security at all, for all 
practical purposes.
    That is why we think the concept of operations is really so 
important. But once you have the concept of operations, then I 
think the opportunity and the technologies are there and the 
vendors are out there quite hungry to do something with them. 
The technology is there to have a lot of pilot projects and 
efforts of that sort, and to move fairly quickly in that regard 
to find out what works and what works better than something 
else. But I think the concept of operations is crystal clear 
and I think you have about said the same thing.
    Chairman Kyl. Mr. Flynn?
    Mr. Flynn. We are a great big, wealthy Nation. We have a 
lot of threats and we can afford to take them on, but one of 
the realities of pursuing the Strategic Defense Initiative 
without dealing with these issues is if you solve the problem 
up there, you push the problem down into legitimate trade 
lanes. So you have to be dealing with, even in that concept 
world, both of these issues concurrently because the threat is 
a weapon of mass destruction. It is a launch vehicle. A truck 
can be the delivery vehicle.
    We are faced in this overall homeland security problem--I 
describe it sort of crassly as a bit like trying to, in the 
United States context, take a raised ranch and make it 
handicap-accessible. It is ugly, it is expensive, and it 
doesn't work very well. We are struggling with taking basically 
this great big, open society, with a lot of emphasis on 
facilitating moving, getting stuff forward with not a whole lot 
of people in the way, and now suddenly trying to craft it 
virtually overnight into dealing with this new threat 
environment.
    The initial phase is not likely to look all that pretty. 
The key is, I think, some investment in resources at the outset 
because you have just got to get by. The long-term approach is 
that we have to understand this broader system prospect, and I 
think the key to getting there right away is the pilot 
programs.
    I have been a big advocate of something that has developed 
that is called Operation Safe Commerce. The initiative, which 
is $28 million and has gone out to the ports of L.A., Long 
Beach, New York, New Jersey, and Seattle-Tacoma, is to go and 
basically recruit retailers, carriers, terminal operators from 
the point of origin of where goods come from and see if we can 
track and if we can monitor the integrity of shipments from the 
point of origin all the way through.
    Now, when you talk about mandating that tomorrow, it is a 
herculean task. But just stepping out and beginning to do it is 
a bit like a 1,000-piece jigsaw puzzle. Once you start doing 
it, patterns start to emerge and you start to get going and the 
relationships come together and you understand it.
    But the key is use the strength of federalism, drill down, 
get the money out of Washington down to the local levels and 
enlist the local Federal representatives along with Governors 
and mayors and their Chambers of Commerce. They can recruit 
often better than the feds can those retailers and those 
carriers, and so forth. And let's begin the process of 
validating low risk.
    On the other set of issues, we have some very good 
programs. The SENTRI program, for instance, can work very well. 
But when I was on the San Ysidro border, I found with the 
SENTRI program that it took over 9 months to get into the 
program because INS didn't have enough people to fill at the 
entry, and plus it was a pretty hefty fee for a Mexican. Our 
security improves when we take those frequent travelers and put 
them in a lane. So don't charge a fee. It would be a relatively 
modest thing so you can do the pre-screening and get those 
people going.
    There were 4.2 million trucks that came across the Laredo 
border in 1999, but it was 88,000 trucks that actually did 
those movements. And this is the key. I would push those one-
stop concepts, one stop like the Brits and French do at the 
base of the Chunnel. One stop is Americans and Mexicans working 
alongside, away from the bridge where there is plenty of real 
estate, and then you could have long-haul truck meet long-haul 
truck. Now, you have taken thousands of trucks out of the mix 
and the result is you have a more efficient border. You have a 
more policeable system to operate from, less environmental 
congestion, and so forth.
    That is the kind of thinking that we need to push, and we 
can do it in a pilot kind of way virtually tomorrow. Use the 
Columbia Bridge or use a border-crossing in Arizona. I haven't 
had the privilege yet to get to Nogales and across your entry, 
sir, but that is the kind of thing I think we need to move on.
    Chairman Kyl. Thank you.
    Mr. Stana, I haven't given you any opportunity. Please take 
an opportunity and then I will call on Senator Craig.
    Mr. Stana. OK, let me be brief, then. I agree with what has 
been said by the other panel members here. I would like to take 
it down to the front line, the few thousand men and women who 
really form our line of scrimmage at the border, and what they 
need to do to assess the risk of the individual that they have 
15 to 20 seconds, on average, to evaluate.
    I agree that they do a very good job, particularly those 
that are well-trained, but we are talking about our national 
security hinging on somebody's gut feel, no matter how well-
intentioned they are. So they do need the tools to help them do 
it better.
    If you are talking about short run, I would concentrate 
initially on getting the intelligence systems in shape so there 
is not a lot of noise in the system, get the intelligence shops 
at the ports to filter out the noise that happened downstream, 
northern border, so that they are not burdened, frankly, with 
understanding and absorbing intelligence that doesn't pertain 
to them.
    I would focus on the IT systems so that they don't have to 
log on and off six different times, and they might only go to 
five because they don't have the time. I would also concentrate 
on the procedures that would have them check more than just the 
license plate of a vehicle, since most of the traffic is 
vehicular, and get to the individual driver and the passengers 
to assess risk more on a random basis, not only on a gut feel 
basis.
    Chairman Kyl. Thank you very much.
    Senator Craig?
    Senator Craig. Probably only a comment, and I thank all of 
you for your testimony and your insight.
    Mr. Flynn, I think you have said it well and said it right. 
Historically, we were an east-west-moving people until NAFTA 
came along, and then we decided we would go north-south. 
Clearly, the greatest growth in commerce and activity over the 
next couple of decades could well be the north-south traffic.
    The greater growth will probably be in the U.S.-Mexican 
relationship, but the growth with Canada will be continuous and 
progressive. There is just no question about that, and whatever 
we do there we have got to do it right and we have got to do it 
with that eye for growth and the ability to handle large flows 
because large flows will also attract, as you have suggested, 
the individual who might try to access by acting as if he or 
she were a part of that. I thank you for that.
    We are seeing that in my State now. The traffic out of 
Canada into the United States through Idaho nearly doubles 
every year, and it has since NAFTA--tremendous traffic. We can 
see it by the forcing of us to improve our roads and widen 
them. But once across that border and into the culture, into 
the economy, it is a different story.
    Clearly, the ability to do as you last suggested, to 
prototype some things, to see how we can handle volumes, my 
guess is is going to be tremendously important because the 
lines entering Arizona, the lines entering Texas are phenomenal 
and they will stifle commerce. And it shouldn't have to happen 
if we can go it smartly.
    Any additional reactions to that comment, I would welcome 
them, but it is more of a comment. I think some of us realize 
it. I don't think our country yet realizes that all of a sudden 
it started looking north and south a good deal more than it is 
looking east and west. The east and west traffic is commerce 
that will continue and will grow, but the greater growth will 
probably be north-south.
    Mr. Flynn. Thank you for that, Senator. The only thing I 
might say real briefly is if there is anything I learned from a 
2-year project of marching along both the northern border and 
the southern border, it is there is no one-size-fits-all with 
regard to our borders. So part of the value of this prototyping 
is learning the unique challenges and the strengths and 
opportunities that each of our jurisdictions pose.
    Another critical point I want to come back to is what Ms. 
Kingsbury has said about the value of international cooperation 
and private sector cooperation. There will never be enough eyes 
and ears. So on the intelligence function, it is going to be 
coming from sharing with our allies the forward information, 
the trade partners, and also getting the private sector willing 
to share when they see things wrong.
    Again, if we do security measures that undermine that 
spirit of cooperation--the old axiom in the security business 
is if you look at everything, you see nothing. So if they find 
themselves robbed of intelligence with just volumes, it is a 
needle-in-a-haystack exercise.
    Thank you, sir.
    Chairman Kyl. Thank you. Let me just ask one last very 
specific question and make one last point.
    Mr. Stana, do you happen to know the status of the 
implementation of the reader programs under the laser visa 
program with Mexico, or should I just get an answer to that for 
the record?
    Mr. Stana. I believe they have demonstration projects at 
about a half a dozen ports and 250-or-so individuals who have 
been caught. I don't know when the full fielding is expected to 
happen.
    Chairman Kyl. What we need to figure out is what, if any, 
additional money we need to put toward that, and therefore how 
quickly that might get done. To the extent you could help us 
with that, I would appreciate that.
    Mr. Stana. Perhaps we can pursue that later.
    Chairman Kyl. Let me just make a general comment. Just 
because of the strictures of time here, we are going to move 
on, but I think that this is a very, very important panel 
because it really sets up the dilemma well.
    What Mr. Flynn bringing his expertise here has pointed out 
I don't think any of us can argue with. The question is how we 
get it done and committing ourselves to apply the resources 
that you quite properly indicate we are going to have to apply 
if we are really serious about this.
    The $5 billion that we spend to protect the military bases, 
for example--obviously, we are protecting a lot of people 
there, too, and there are some potential threats out there for 
that. But that is something we have learned to do well. We know 
we need to protect the bases. We have learned how to do it and 
we are willing to spend the resources for it. This new problem, 
however, is not something we have gotten used to, and we 
haven't gotten used to spending the kind of resources that we 
are going to have to.
    I would ask Ms. Kingsbury and the folks at GAO to help us 
out by not--and I am not suggesting this has been done, but 
what we need to do is not just focus on the dollars and cents, 
but accept the public policy commitment to provide as much 
security as we possibly can, as quickly as we can, and evaluate 
programs in that context.
    It is easy for us to sit back and make it perfect 30 years 
from now after the horse is long gone from the barn. Your point 
is, unless we do a good job here, we could waste an awful lot 
of money and we don't have the money to waste on it. So your 
point is very well taken, but we are going to need to do a lot 
more, a lot more quickly, than we would ordinarily be used to 
doing, and we need to find the fiscal ways of doing that in a 
responsible way.
    I think that is the challenge before us, and maybe in 
another year or so we can get back with all of you and see 
where we are at that point, having taken advantage of your 
expertise.
    I want to thank all of you for being here. Again, as with 
the first panel, we will leave the record open for any further 
questions for the record for all of you. Thank you very, very 
much.
    With that, Senator Craig, unless you have anything else, 
this hearing will be adjourned.
    [Whereupon, at 12:19 p.m., the Subcommittees were 
adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T9330.001
    
    [GRAPHIC] [TIFF OMITTED] T9330.002
    
    [GRAPHIC] [TIFF OMITTED] T9330.003
    
    [GRAPHIC] [TIFF OMITTED] T9330.004
    
    [GRAPHIC] [TIFF OMITTED] T9330.005
    
    [GRAPHIC] [TIFF OMITTED] T9330.006
    
    [GRAPHIC] [TIFF OMITTED] T9330.007
    
    [GRAPHIC] [TIFF OMITTED] T9330.008
    
    [GRAPHIC] [TIFF OMITTED] T9330.009
    
    [GRAPHIC] [TIFF OMITTED] T9330.010
    
    [GRAPHIC] [TIFF OMITTED] T9330.011
    
    [GRAPHIC] [TIFF OMITTED] T9330.012
    
    [GRAPHIC] [TIFF OMITTED] T9330.013
    
    [GRAPHIC] [TIFF OMITTED] T9330.014
    
    [GRAPHIC] [TIFF OMITTED] T9330.015
    
    [GRAPHIC] [TIFF OMITTED] T9330.016
    
    [GRAPHIC] [TIFF OMITTED] T9330.017
    
    [GRAPHIC] [TIFF OMITTED] T9330.018
    
    [GRAPHIC] [TIFF OMITTED] T9330.019
    
    [GRAPHIC] [TIFF OMITTED] T9330.020
    
    [GRAPHIC] [TIFF OMITTED] T9330.021
    
    [GRAPHIC] [TIFF OMITTED] T9330.033
    
    [GRAPHIC] [TIFF OMITTED] T9330.022
    
    [GRAPHIC] [TIFF OMITTED] T9330.034
    
    [GRAPHIC] [TIFF OMITTED] T9330.023
    
    [GRAPHIC] [TIFF OMITTED] T9330.035
    
    [GRAPHIC] [TIFF OMITTED] T9330.024
    
    [GRAPHIC] [TIFF OMITTED] T9330.036
    
    [GRAPHIC] [TIFF OMITTED] T9330.025
    
    [GRAPHIC] [TIFF OMITTED] T9330.037
    
    [GRAPHIC] [TIFF OMITTED] T9330.026
    
    [GRAPHIC] [TIFF OMITTED] T9330.038
    
    [GRAPHIC] [TIFF OMITTED] T9330.027
    
    [GRAPHIC] [TIFF OMITTED] T9330.039
    
    [GRAPHIC] [TIFF OMITTED] T9330.028
    
    [GRAPHIC] [TIFF OMITTED] T9330.040
    
    [GRAPHIC] [TIFF OMITTED] T9330.029
    
    [GRAPHIC] [TIFF OMITTED] T9330.030
    
    [GRAPHIC] [TIFF OMITTED] T9330.031
    
    [GRAPHIC] [TIFF OMITTED] T9330.032
                                   - 

</pre></body></html>
